    Office of the Inspector General
Tennessee Valley Authority
                Semiannual Report
  October 1, 2012 - March 31, 2013
                         TVA Power Generation FY 2012
                                        (in millions of kilowatt hours)

                      Natural gas         Nonhydro
                   and/or oil-fired       renewable          VV Coal - 58,584
                              12%         resources
                                          <1%
                                                      Coal   VV Nuclear - 55,244
                                                      41%
         Hydroelectric
                  9%
                                                             VV Hydroelectric - 12,817

                                                             VV Natural gas and/or oil-fired - 16,650

              Nuclear                                        VV Nonhydro renewable resources - 25*
                38%

                                                             *Operation and maintenance issues reduced the
                                                             available renewable generation during 2012, 2011, and
                                                             2010 from several facilities, including those utilizing
                                                             methane, solar, and wind.



    Source: TVA FY 2012 Annual Report

2    TVA OIG Semiannual Report
                                Table of Contents
         Navigating Risk: Challenges In Maintaining Financial Health



Message from the Inspector General.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Special Feature  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Executive Overview  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

Organization  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

Evaluations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

Investigations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

Legislation and Regulations  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

Appendices . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

Appendix 1 – Index of Reporting Requirements Under the Inspector General Act  . . . . 47

Appendix 2 – Audit and Evaluation Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . 48

Appendix 3 – Audit and Evaluation Reports Issued with Questioned and
             Unsupported Costs and Recommendations for Better Use of Funds  . . . . 50

Appendix 4 – Audit and Evaluation Reports with Corrective Actions Pending  . . . . . . . 52

Appendix 5 – Investigative Referrals and Prosecutive Results  . . . . . . . . . . . . . . . . . . 56

Appendix 6 – Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

Appendix 7 – Government Contractor Audit Findings . . . . . . . . . . . . . . . . . . . . . . . . 58

Appendix 8 – Peer Reviews of the TVA OIG  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

Appendix 9 – Peer Reviews Conducted of Another OIG . . . . . . . . . . . . . . . . . . . . . . . 59

Glossary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61

Abbreviations and Acronyms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62




                                                                                           TVA OIG Semiannual Report       3
Message from
the Inspector General

I am pleased to present our report for the period October 1, 2012,
to March 31, 2013. As we have said previously, risk is at the heart
of everything we do. In the feature for this semiannual report, we
continue our focus on navigating risk by discussing the Tennessee
Valley Authority’s (TVA) challenges in maintaining financial health. In
these difficult economic times, it is more important than ever for the
Office of the Inspector General (OIG) to illuminate the risks we see and
work with TVA management to find solutions to mitigate those risks so
that prudent decisions can be made on the best use of TVA resources.


To this end, in this semiannual          $1.3 million of questioned          indictments in federal court
period, our audit, evaluation,           costs and needed                    of former employees, and
and investigative activities             improvements in contract            projected savings of more
identified more than                     administration.                     than $770,000 because of
$2 million in recoveries, fines,                                             our role in the termination
penalties, potential savings, and     VV A review of TVA’s meter             of a drug-trafficker’s Federal
questioned costs and identified          testing which found testing         Employees Compensation
numerous opportunities for               complied with timeliness            Act benefits.
TVA to improve its programs              policies and procedures
and operations. Some of the              and met industry standards;       On a personal note, I want to
highlights include:                      however, improvements             thank TVA’s new President and
                                         were needed in meter              Chief Executive Officer (CEO)
VV A review of building and              testing processes related         Bill Johnson for the time he has
   infrastructure risks which            to verification of meter          graciously given to the OIG
   found the program design was          constants, reconciliation of      staff in getting to know us on a
   reasonably effective; however,        meter information in TVA          personal basis. In the midst of a
   TVA’s risk could be reduced           systems, and consistency of       daunting schedule, Bill Johnson
   by including underutilized            testing documentation.            has begun to build trust one TVA
   properties in the program and                                           employee at a time. We applaud
   addressing program funding         VV A review of coal terminals        his efforts, and we pledge our
   where possible.                       supplying TVA which found         support to our mutual purpose of
                                         improvements were needed          making TVA better.
VV Information technology                in both TVA’s monitoring
   (IT) related reviews                  of coal weight and quality        Also, I want to thank our new
   which identified needed               and the flyover inventory         Board members for making
   improvements in security and          adjustment process.               themselves available recently
   general operating controls.                                             to meet with Deputy Inspector
                                      VV Investigations which led to the   General Ben Wagner and me in
VV Contract compliance reviews           conviction of four individuals    their hometowns. Lynn Evans
   which identified almost               on various charges, two           of Memphis, Tennessee;


4   TVA OIG Semiannual Report
Fort Loudoun Dam




 Peter Mahurin of Bowling Green,   on competency and character.       working relationship that our
 Kentucky; Mike McWherter          Clear communication and            stakeholders reasonably expect.
 of Jackson, Tennessee;            frequent clarification promotes
 and Joe Ritch of Huntsville,      healthy dialogue. Together, we
 Alabama; all took time from       acknowledge a mutual purpose
 their busy schedules to discuss   and a mutual respect that inures   Richard W. Moore
                                                                      Inspector General
 our respective roles and          to the benefit of a better TVA.
 responsibilities. A productive
 working relationship between      We welcome our new CEO
 the TVA Board and the OIG is      and Board members, and we
 based on trust. Trust is based    look forward to the productive

                                                                          TVA OIG Semiannual Report   5
                                SPECIAL FEATURE
                                TVA OIG SEMIANNUAL REPORT




6   TVA OIG Semiannual Report
Special Feature: Navigating Risk:
Challenges in Maintaining Financial Health

In our Fall 2011 semiannual report, we discussed the role of the OIG in
identifying and assessing risk at a government agency. Our last semiannual
report discussed risks faced by TVA and others related to cyber security. In
this article, we are focusing on major challenges and associated risks facing TVA
that could impact financial health. The decisions TVA makes in addressing these
challenges have significant financial impacts and affects how successful TVA is in
achieving its mission of (1) low cost energy, (2) economic development, and
(3) environmental stewardship.




There has been much debate                and maintenance of the existing            to address challenges while
about how you define a                    power system should be funded              continuing TVA’s mission.
financially healthy TVA. Some             out of revenues. According to
people have suggested that                TVA, financing new generation              Successes and
TVA’s debt levels should be cut           with debt results in a lower cost          Challenges
in half. Additionally, the ability        to TVA’s current ratepayers and
to meet cash flow requirements            aligns repayment of generation             The news is littered with stories
while maintaining competitive             investment obligations with the            of bank failures, company
rates is a key factor. In the most        consumers who will benefit from            downsizing, and spending cuts.
simplistic view, financial health         those assets.                              These problems have resulted in
can be defined as a company’s                                                        job losses and lost investments—
ability to pay its bills while            One thing is clear, TVA must               sometimes even lost hope and
maintaining a strong competitive          use its financial resources in the         public trust. Financial problems
position in the market place,             most prudent manner to most                for our nation are not new.
as well as a healthy positive             effectively achieve its strategic          As part of the “New Deal,”
net worth. The TVA Board has              goals. The OIG’s goal is to help           President Franklin Roosevelt
established a set of financial            promote more effective and                 asked Congress to create “a
principles to bring a level of            efficient operations through               corporation clothed with the
discipline to TVA’s decision              the conduct of our audits,                 power of government but
making and ensure continued               evaluations, and investigations.           possessed of the flexibility
financial health. TVA maintains           This feature discusses (1) the             and initiative of a private
that the use of debt is consistent        history of TVA’s successes, as             enterprise.” Eighty years ago,
with several financial guiding            well as challenges in remaining            on May 18, 1933, TVA was born.
principles, including that new            financially healthy; and
debt should be used only to fund          (2) how the OIG’s work helps               Successes
new generation investments and            illuminate risks and provide               TVA has had a long, rich history
debt should be repaid before              recommendations for TVA                    filled with change. TVA’s
the end of the useful life of the         management to consider as                  stakeholders and Valley residents
assets, while operating costs             they decide the best ways                  can cite ample examples of



                                                                                        TVA OIG Semiannual Report   7
                                                                           of these 8 units was based on
                                                                           less-than-expected demand and
                                                                           the emergence of increased
                                                                           regulatory requirements as a
                                                                           result of events within the nuclear
                                                                           power industry. It was also during
                                                                           this time that TVA increased its
                                                                           debt ceiling to $30 billion—an
                                                                           amount which remains TVA’s
                                                                           ceiling today—primarily in order
                                            Senator Norris at Norris Dam
                                                                           to fund the nuclear construction.

contributions over those years not     a world-class transmission          During the late 1980s, rumors
only to the Tennessee Valley but       system with 12 straight years of    of deregulation created a sense
also to the nation. From its early     99.999 percent reliability.         of urgency within the members
days of developing fertilizer for      TVA has a very good record          of the industry to cut costs and
lands that had been farmed too         of attracting and retaining a       improve competitive position.
long to harnessing the rivers for      significant number of jobs in       In anticipation of deregulation,
flood control and navigation, TVA      the Valley and securing billions    TVA did not raise rates for
became a lighthouse to a region        of dollars in capital investment.   10 years, from 1988 through
canvassed in the darkness of the       While TVA pursued its mission,      1997, in order to be more
1930s economic Depression.             there have been many difficult      competitive. While the decade-
Regional life changed with the         challenges to overcome.             long rate freeze may have
advent of electricity generated                                            improved TVA’s relations with
by TVA dams. Electric lights           Historic Challenges                 its customers and the residents
and modern appliances made             The TVA region experienced          of the Tennessee Valley in the
life easier and farms more             much economic growth in the         short-term, it also may have had
productive. The region saw job         1960s. TVA’s electric rates were    long-term, possibly unforeseen,
growth through industries drawn        among the nation’s lowest and       consequences. Presumably,
in by electricity. Coal-fired plants   stayed low as TVA brought           the loss of potential revenue
joined in with hydroelectric dams      larger, more efficient generating   associated with the ten-year
in making electricity. Since its       units into service. Expecting       rate freeze may have placed
inception, TVA has steadfastly         the region’s electric power         unnecessary pressure on TVA’s
held to its mission of providing       needs to continue to grow, TVA      financial flexibility.
reliable power at the lowest           began building nuclear plants
feasible cost and being a steward      as a new source of economical       With no increased revenues from
of the lands and rivers within its     power. However, by the early        rate increases, TVA’s July 1997
domain. Today, TVA meets the           1980s, TVA had cancelled 8 of       ten-year business plan called
power demands of the Valley            its 17 planned nuclear units,       for reducing its debt in half over
with a diverse energy portfolio        after investing nearly $5 billion   ten years. This was to be done
and power rates that are               in those cancelled units. TVA’s     by increasing its electricity rates
competitive. TVA has maintained        decision to cancel completion       beginning in 1998, reducing



8   TVA OIG Semiannual Report
certain expenses, and limiting         not be economical to improve          new conditions and is currently
capital expenditures. However,         the reliability of some units in      undertaking efforts to update
TVA did not meet this goal             light of their age and current        this plan.
because it used cash intended for      condition. TVA faces additional
debt reduction to cover greater        challenges outside of their           OIG Focus
than estimated annual operating        control including: (1) challenges
costs and capital expenditures,        by way of more stringent              TVA’s financial health is an
primarily related to compliance        environmental regulations around      area of constant focus for the
with clean air initiatives.            clean air, water quality control      OIG. Over the past several years,
                                       and management and disposal           our office has performed
TVA’s financial challenges             of solid and hazardous wastes,        many audits, reviews, and
weren’t just limited to generation     and other increasing regulatory       special projects to assess the
demand or reactions to potential       requirements that could increase      challenges affecting financial
deregulation. In December 2008,        costs; (2) increasing demands for     management and performance,
TVA experienced one of the most        higher cost alternative energy        including areas covering TVA’s:
costly events in its history: the      sources; and (3) nationwide           (1) financial flexibility
Kingston ash spill, which resulted     uncertainty of market conditions      and alternative financing
in approximately 5.4 million cubic     which could also significantly        arrangements; (2) issues affecting
yards of coal ash spilling onto the    affect pension funds, the cost        the cost and schedule of
adjacent land and into the Emory       for natural gas and coal, and         constructing Watts Bar Nuclear
River. Not only was this spill one     ultimately lower electricity sales.   Plant (WBN) Unit 2; (3) risks
of the most costly events in TVA       In 2011, TVA completed an             associated with its pension plan;
history, it was in fact the largest    integrated resource plan (IRP)        (4) financial trading program and
fly ash release in United States       that identifies a strategy and        its effect of financial results; and
history.                               roadmap for TVA to follow over        (5) generation and distribution
                                       the next several years. TVA’s IRP     assets condition. We are
Current Challenges                     has been developed to support         continuing our focus in the future
Today, like in the past, uncertainty   TVA’s mission for meeting             by reviewing how well TVA is
continues to be a tremendous           the electric power needs of           maintaining its fleet, closing the
challenge to maintaining a             the Tennessee Valley region in        gap on pension funding, and
strong, financially-healthy TVA.       a sustainable manner. The             ensuring executive goals are
Like many companies that are           20-year strategy recommended          aligned properly to focus on
capital-intensive, TVA faces           by the IRP provides direction         long-term health. Discussed
several challenges related to          for decisions that require a long     below are the results of some
financial management stemming          lead time. It is consistent with      previously completed reviews.
from both internal and external        TVA’s Environmental Policy and its
pressures. TVA must continue           renewed vision—to become one          Financial Flexibility
to provide cost-effective new          of the nation’s leading providers     In 2011, we assessed TVA’s
generation in view of the risk of      of low-cost and cleaner energy        financial flexibility given its
future changes in demand. TVA          by 2020. TVA management               current debt and other borrowing
must decide how to handle an           has determined that this plan         levels and alternatives for TVA to
aging coal fleet, given that it may    needs to be revised to reflect        meet its future financing needs.



                                                                                 TVA OIG Semiannual Report     9
                                                                             TVA recognized the problems
                                                                             associated with the construction
                                                                             of WBN Unit 2 and publicly
                                                                             acknowledged them. TVA has
                                                                             taken action to offer an accurate
                                                                             reflection of the progress of the
                                                   Watts Bar Nuclear Plant   project, engage and improve
                                                                             the relationship with the
                                                                             project workers, and promote
We reported that TVA’s then             also stated that TVA should be
                                                                             transparency. In addition,
and current debt ceiling of             able to support additional debt
                                                                             outside experts are being used to
$30 billion could limit its financial   to help meet energy demands
                                                                             provide additional independent
flexibility and require TVA to seek     as long as TVA uses the debt
                                                                             oversight at continual points in
higher cost financing options or        proceeds to successfully build
                                                                             the project to ensure the project
require significant rate increases      generating capacity, the
                                                                             proceeds within the schedule and
that could adversely affect the         TVA Board maintains its
                                                                             budget expectations approved
economic development of the             ratemaking authority, and TVA
                                                                             by the TVA Board in April 2012.
Tennessee Valley region. At             maintains its service territory
the time, TVA was evaluating            and customer base.
                                                                             Pension Funding
various options to increase its
                                                                             In 2010, we reported on the
flexibility. TVA management’s           Watts Bar Unit 2 Cost and
                                                                             risks associated with TVA’s
position was that a financial           Schedule
                                                                             pension plan and how those
metric (e.g., similar to the debt       TVA began construction on
                                                                             risks were mitigated. Based on
service coverage ratio used             WBN Unit 2 in October 2007.
                                                                             our work, we determined that
with investor-owned utilities)          In 2012, our review of the WBN
                                                                             the Tennessee Valley Authority
rather than a fixed debt ceiling        Unit 2 cost and schedule found
                                                                             Retirement System (TVARS)
amount would better focus TVA’s         the construction project had
                                                                             was experiencing a significant
borrowing authority on its ability      experienced significant schedule
                                                                             shortfall between assets and
to pay outstanding debt and still       and cost overruns attributable
                                                                             projected obligations and was
provide Congress with oversight         primarily to (1) deficiencies in
                                                                             being funded at a lower level,
and control. Our office agreed          project set-up and (2) ineffective
                                                                             relative to obligations, than most
with TVA management in their            management oversight. At the
                                                                             other comparison utilities. This
efforts to maintain maximum             time, the project was originally
                                                                             funding shortfall resulted from
financial flexibility including:        expected to be completed in
                                                                             (1) TVA not making contributions
(1) adopting sound financial            October 2012 at a cost of just
                                                                             to TVARS in six years, (2) TVA/
policies, (2) ensuring multiple         under $2.5 billion. However, on
                                                                             TVARS adding significant benefits
options and strategies are              April 5, 2012, TVA announced
                                                                             to the plan during the time when
pursued to achieve the most             an additional $1.5 to $2 billion
                                                                             the funding status was better,
economical approach, and                would be required to complete
                                                                             (3) TVA/TVARS incentivizing
(3) seeking to ensure the debt          the project with an estimated
                                                                             employees to retire, and
ceiling remains a viable option in      time of completion between
                                                                             (4) the market devaluation in
future financing decisions. We          September and December 2015.
                                                                             2008 and early 2009. We


10   TVA OIG Semiannual Report
noted that these events                 commodities in the program.          was identified through system,
constituted a near “perfect             We found the design of TVA’s         program, and component
storm” that created a financially       program control structure was        health assessments, although
unhealthy system with a funding         appropriate. However, we             the process varied among the
shortfall of approximately              identified several areas where       organizations. We also noted
$3 billion and annual retirement        management oversight should          that all of the organizations
benefit payment obligation              be improved to validate the          reviewed used asset condition
of about $575 million as of             usefulness and effectiveness of      information to identify corrective
December 31, 2008.                      the program as well as to ensure     actions when necessary. Finally,
                                        TVA stakeholders’ understanding      we found that condition of asset
As of September 30, 2012,               of the program. Specifically:        information was used by the
TVA’s qualified pension plan had        (1) TVA had not conducted a          (1) organizations to develop
assets of $7 billion compared           comprehensive cost-benefit           and prioritize projects for
to liabilities of $11.9 billion.        analysis to determine whether        business planning purposes
TVA stated the potential for the        the benefits derived were            and (2) System Planning group
plan’s funded status to quickly         greater than the inherent risks      for future costs.
improve is limited because              of the program; (2) TVA did not
of the significant amount of            measure the performance of           Conclusion
benefits paid each year to plan         the program against defined
beneficiaries. At that date,            program objectives; and              In summary, TVA’s challenges are
the plan had approximately              (3) TVA’s communications with        as great today as they ever have
36,000 participants, of which           its customers did not sufficiently   been. In looking at the past,
approximately 23,000 were               convey the program’s impact          the monumental challenges that
retirees or beneficiaries currently     on rates. We plan to conduct a       were overcome to sustain the
receiving benefits. Benefits of         follow-up review to look more in     current performance record are
approximately $600 million were         depth at TVA’s trading strategies.   noteworthy. As we have stated
paid to participants in 2012.                                                in previous semiannual reports,
                                        Condition of TVA’s                   overcoming the current and
TVA’s Financial Trading                 Generating Assets                    future challenges will require TVA
Program                                 Given the aging fleet of TVA’s       management, TVA employees,
TVA’s Financial Trading Program         generating assets, in this           and the OIG to continue working
(FTP) was established to hedge          semiannual period, we reviewed       toward a mutual purpose—
or otherwise limit the economic         how TVA (1) assesses the             making TVA better. The OIG will
risks associated with the price         condition of electric generation     continue to provide constructive
of commodities covered by               and distribution assets and          input by bringing challenges to
TVA’s Fuel Cost Adjustment.             (2) uses that information for        the forefront and collaborating
Because of the growth in FTP            planning. Our review covered         with TVA management and
financial positions and the             the Nuclear and Fossil Power         employees on the most effective
inherent risk with the program,         Groups, Energy Delivery, and         and efficient solutions to deal
we audited the natural gas              River Operations organizations.      with the challenges confronted
hedging program which was               Within these organizations, we       and that lie ahead.
significant in size relative to other   found the condition of assets


                                                                                 TVA OIG Semiannual Report   11
                      EXECUTIVE OVERVIEW
                               TVA OIG Semiannual report




12 TVA OIG Semiannual Report
Executive Overview

In this semiannual report, we continue our theme of Navigating Risk with a
focus on TVA’s challenges to maintaining its financial health and the OIG’s
role in helping TVA successfully achieve its mission. The reviews discussed
below highlight our most recent efforts to provide TVA management with
independent assessments of the performance of TVA programs, risks identified,
and recommendations for improvement that TVA management can leverage as
they strive to make the best decisions to keep TVA operating effectively.        Bellefonte Nuclear Plant




AUDITS                                   Fossil Plant ash spill in 2008.        statements. The Corporate
                                         These audits identified potential      Governance and Finance Audits
During this reporting period,            overbillings of about $1.3 million.    section begins on page 25 of this
the TVA OIG completed                    The Contract Audits section            report.
16 audits, reviews, and agreed-          begins on page 23 of this report.
upon procedures. Our work                                                       IT Audits
identified approximately                 Corporate Governance                   We completed four audits in
$1.3 million in questioned               and Finance Audits                     the IT environment pertaining
costs and helped TVA recover             With a focus on TVA’s revenue          to TVA’s (1) processes for
more than $558,000. This                 recognition, regulatory activities,    (a) complying with North
work also identified numerous            compliance with applicable laws        American Electric Reliability
opportunities for TVA to improve         and regulations, and financial         Corporation (NERC) critical
its programs and operations.             reporting, we completed an             infrastructure protection (CIP)
                                         audit of TVA’s testing of revenue      standards for critical cyber
Contract Audits                          meters and determined TVA’s            asset identification and (b) self-
We completed five                        meter testing complies with            reporting of CIP violations;
contract compliance audits               TVA policies and procedures            (2) IT security and privacy
with expenditures totaling               regarding timeliness and meets         practices as required by the
$173.5 million related to                identified industry standards;         Federal Information Security
(1) engineering, licensing,              however, we noted areas for            Management Act (FISMA);
construction, and startup                improvement in TVA’s meter             (3) IT general controls for
operation services in support of         testing processes. We also             river scheduling systems; and
completion of TVA’s Bellefonte           completed a mandated review            (4) management of the Unix
Nuclear Plant; (2) vacuuming             of TVA’s compliance with the           operating system. Our reviews
services at TVA fossil plants;           Improper Payment Information           found security and general
(3) relocation services for              Act (IPIA) of 2002, as amended.        control improvements were
TVA employees; (4) refueling             Finally, we applied agreed-            needed. The IT Audits section
outage services at TVA’s WBN             upon procedures to TVA’s               begins on page 27 of this report.
Plant; and (5) project planning,         2012 Winning Performance
management, oversight, and               (WP) payout and performed              Operational Audits
environmental services for               procedures to monitor the              The team completed three
the recovery and remediation             external auditors’ fiscal year (FY)    audits related to (1) TVA’s efforts
associated with the Kingston             2012 audit of TVA’s financial          to identify and mitigate risks


                                                                                   TVA OIG Semiannual Report     13
                                                                                  Browns Ferry Nuclear Plant



associated with its buildings         EVALUATIONS                        temporary living allowances and
and infrastructure, (2) TVA’s risk                                       found employees tested met
for significant equipment failures    The Evaluations team completed     all eligibility requirements. The
in River Operations, and              six reviews. Three reviews         Evaluations section begins on
(3) Browns Ferry Nuclear (BFN)        were part of a series that         page 33 of this report.
Plant’s transition to a new           evaluated key TVA risks. These
fire protection standard. We          included physical assaults risk,   INVESTIGATIONS
identified opportunities to           load forecast risk, and outage
improve (1) processes and risk        scheduling risk. We found          This reporting period, our
exposure related to buildings         the mitigation strategies for      investigations resulted in
and infrastructure, (2) the process   each of these three risks were     four persons convicted and
used to identify equipment            appropriately designed; however,   two indicted in federal court.
failures in River Operations,         opportunities for improvement      Violations ranged from theft
and (3) contingency plans             were identified. The team also     to major fraud. Additionally,
for transitioning to a new fire       completed a review of coal         our role in the termination of
protection standard. The              terminals supplying TVA and        a former employee’s workers’
Operational Audits section            identified improvements were       compensation benefits resulted
begins on page 29 of                  needed with coal monitoring        in a projected savings of more
this report.                          and the flyover inventory          than $770,000. The Investigations
                                      adjustment process at terminals.   section begins on page 39 of this
                                      Finally, the team reviewed TVA’s   report.


 14   TVA OIG Semiannual Report
       Shawnee Fossil Plant




           STATISTICAL HIGHLIGHTS
                   October 1, 2012 - March 31, 2013
Audit Reports Issued                           16
Evaluations Completed                          6
Questioned Costs                               $1,262,349
Disallowed Costs                               $2,039,310
Funds Recovered                                $558,602
Funds to Be Put to Better Use                  $0
Funds Realized by TVA                          $145,000
Investigations Opened                          134
Investigations Closed                          105
Recoveries/Savings/Fines/Penalties             $770,234
Other Monetary Loss                            $0
Criminal Actions                               6
Administrative Actions (No. of Subjects)       16



                                                            TVA OIG Semiannual Report   15
                                 TVA ORGANIZATION
                                          TVA OIG Semiannual report




                    Charles A. Kandt                       Richard W. Moore
                    Counselor to the IG                     Inspector General


                                                             Ben R. Wagner
                                                             Deputy Inspector
                                                                General


W. David Winstead     Jill M. Matthews                               Robert E. Martin                                John (Jack) Brennan
                      Assistant Inspector                                                                             Assistant Inspector
  Legal Counsel                                        Assistant Inspector General, Audits & Evaluations
                    General, Administration                                                                          General, Investigations

                        Kay T. Myers           Lisa H. Hammer        David P. Wheeler
                    Director, Organizational                           Deputy Assistant       Greg R. Stinson         Nancy J. Holloway
                                                   Director,
                       Health & Resource                              Inspector General,     Director, Evaluations   Special Agent In Charge
                                               Operational Audits
                         Management                                         Audits


                      Kathy H. Kirkham                                                                                 Paul B. Houston
                                                                      Phyllis R. Bryan
                       Manager, Human
                                                                      Director, IT Audits                            Special Agent In Charge
                         Resources


                                                                     Curtis C. Hudson
                                                                          Director,
                                                                       Contract Audits


                                                                    Rick C. Underwood
                                                                     Director, Corporate
                                                                       Governance &
                                                                       Finance Audits




16 TVA OIG Semiannual Report
Organization

Since 1985, the OIG has worked to help TVA become better which is the OIG
mission. Through our audits, evaluations, and investigations, we provide TVA
management, the TVA Board, and Congress with an independent look at the
economy, efficiency, and effectiveness of TVA programs and help prevent
and detect fraud, waste, and abuse. Over the years, the OIG has saved TVA
millions and recommended numerous program improvements. We credit
our success to the efforts of our hardworking and talented staff and the
professional responsiveness of TVA management to our recommendations.
                                                                                TVA Towers Knoxville, TN




TVA OIG Office Locations                 allow our employees to telework       The OIG has a field office in the
The OIG has a work philosophy            from home or while traveling.         Edney Building in Chattanooga,
of being in the right place at           We measure productivity, not          Tennessee, where the Evaluations
the right time to do the best            where the work is done.               unit, members of the Corporate
work possible. We support that                                                 Governance and Finance team,
philosophy by encouraging our            The OIG has strategically located     and several Special Agents are
OIG employees to work where              its offices near all major TVA        located as well as staffed field
they can be most effective               offices throughout the Tennessee      offices in Nashville, Tennessee,
whether that is in one of our            Valley. We are headquartered          and Huntsville, Alabama. We
physical offices or whether              opposite TVA’s corporate offices      also have office locations at WBN
it is one of our virtual offices         in the East Tower, overlooking        Plant in Spring City, Tennessee;
supported by Web cameras that            downtown Knoxville.                   Bellefonte Nuclear Plant in
                                                                               Hollywood, Alabama; and
                                                                               Sequoyah Nuclear (SQN) Plant
                                                                               in Soddy-Daisy, Tennessee.
                                                                               Staff work in these locations
                                                                               as needed.

                                                                               As of March 31, 2013, the OIG
                                                                               had a total staff of 103. The
                                                                               number of personnel located
                                                                               at each staffed office is:
                                                                               Knoxville-80, Chattanooga-18,
                                                                               Nashville-1, and Huntsville-4.

                                                                               ADMINISTRATION

                                                                               The Administration team
 Sequoyah Nuclear Plant                                                        works closely with the IG,
                                                                               Deputy IG, and Assistant IGs
                                                                               to address the day-to-day


                                                                                  TVA OIG Semiannual Report     17
operations of the OIG and to          the Audits and Evaluations group       recommendations for cost savings
develop policies and procedures       makes recommendations to               or process improvements. The
designed to drive and enhance         enhance the effectiveness              result of the OIG Audits and
productivity in achieving office      and efficiency of TVA programs         Evaluations planning process is a
goals. Responsibilities include       and operations.                        focus on those issues of highest
personnel administration, budget                                             impact and risk to TVA.
and financial management,             The group uses an impact-
purchasing and contract services,     and risk-based approach                The Audits team, primarily
facilities coordination, conference   to develop an annual work plan.        based in Knoxville, generates
planning, communications              In developing the plan, the OIG        and oversees comprehensive
facilitation, and IT support.         considers TVA’s strategic plans,       financial and performance
                                      major management challenges,           audits of TVA programs and
AUDITS AND                            TVA’s enterprise risk management       operations, providing an inclusive
EVALUATIONS                           process, and other input from          picture of TVA’s overall fiscal and
                                      TVA management. This planning          operational health. This team is
The Audits and Evaluations            model also evaluates each              made up of four departments—
group performs a wide variety         potential engagement from the          Contract Audits, Corporate
of engagements designed               standpoint of materiality (i.e.,       Governance and Finance Audits,
to promote positive change            costs or value of assets), potential   IT Audits, and Operational Audits.
and provide assurance to TVA          impact, sensitivity (including
stakeholders. Based upon the          public and congressional interest),    VV Contract Audits has lead
results of these engagements,         and the likelihood it will result in      responsibility for contract




                                                                                                  Nickajack Dam




 18   TVA OIG Semiannual Report
                        Types of Audit & Evaluation Issues

                       Corporate Governance and                                  Operational Audits
                            Finance Audits                              •	 Operational Inefficiency
                      •	 Internal Control Deficiencies                  •	 Not Achieving Intended Results
                      •	 Program Inefficiencies/Ineffectiveness         •	 Inferior Performance
                      •	 Policy Noncompliance                           •	 Legal/Regulatory Noncompliance
                      •	 Fraud                                          •	 Fraud



                IT Audits                                     Evaluations                               Contract Audits
    •	 Unauthorized Access                         •	 Internal Control Deficiencies               •	 Inflated Proposals
    •	 Inadequate Controls                         •	 Operational Inefficiency                    •	 Contract Overpayments
    •	 Lack of Data Integrity                      •	 Policy Noncompliance                        •	 Inferior Performance
    •	 Fraud                                       •	 Fraud                                       •	 Fraud




   compliance and preaward                        IT infrastructure, application              more limited scope policy and
   audits. In addition, this group                controls, and general controls              program reviews. In accordance
   performs reviews of TVA                        associated with TVA systems.                with the Quality Standards for
   contracting processes and                      This group also performs                    Inspection and Evaluation, the
   provides claims assistance as                  operational reviews of the                  objectives of the unit include
   well as litigation support.                    effectiveness of IT-related                 providing a source of factual
                                                  functions.                                  and analytical information,
VV Corporate Governance and                                                                   monitoring compliance,
   Finance Audits has lead                    VV Operational Audits focuses                   measuring performance,
   responsibility for oversight of               on risk and impact-driven                    assessing the efficiency and
   TVA’s (1) financial statement                 operational audit work. The                  effectiveness of operations,
   audit and related services                    team performs audits of                      and conducting inquiries into
   performed by TVA’s external                   operational effectiveness                    allegations of fraud, waste, abuse,
   auditor and (2) regulatory                    and efficiency, as well as TVA               and mismanagement. Audit and
   activities. This group also                   compliance with laws and                     evaluation issues vary depending
   conducts operational reviews                  regulations.                                 on the objectives of the project.
   to assess the results as well as                                                           The graphic above shows some
   the economy and efficiency of              The Evaluations team seeks to                   representative examples of
   TVA’s financial programs.                  ensure that program objectives                  issues our audit and evaluation
                                              and operational functions                       projects are commonly designed
VV IT Audits has lead                         are achieved effectively and                    to identify.
   responsibility for audits                  efficiently. It performs both
   relating to the security of TVA’s          comprehensive reviews and


                                                                                                      TVA OIG Semiannual Report   19
INVESTIGATIONS                                 agencies and organizations on                care, and public corruption and
                                               special projects and assignments,            securities fraud. The graphic
The Investigations team uncovers               including interagency law                    below shows the major categories
activity related to fraud, waste,              enforcement task forces on                   of investigations.
and abuse in TVA programs and                  terrorism, the environment, health
operations. This team performs                                                              LEGAL
its investigations in accordance
with the Quality Standards for                                                              The OIG Legal Counsel team
Investigations. The Special                                                                 monitors existing and proposed
Agents maintain liaisons with                                                               legislation and regulations
federal and state prosecutors                                                               that relate to the mandate,
and notify the U.S. Department                                                              operations, and programs of the
of Justice (DOJ) whenever the                                                               OIG and TVA. Additionally, this
OIG has reason to believe there                                                             team provides legal advice as
has been a violation of federal                                                             needed for administrative, audit,
criminal law. The Special Agents                                                            evaluation, and investigative
partner with other investigative                                                            projects.



                      Major Categories of Investigations
                                                                        Theft of Government
                                 Contract Fraud
                                                                        Property and Services
                               Defrauding TVA through its
                          procurement of goods and services            Theft of TVA property and schemes
                            including fraud schemes such as           to defraud . . . designed to deprive
                           misrepresenting costs, overbilling            individuals, the people, or the
                          charges, product substitution, and          government of intangible rights, such
                           falsification of work certifications.        as the right to have public officials
                                                                           perform their duties honestly.


       Environmental Crime                            Health Care Fraud                      Illegal Hacking Into TVA
    Violations of environmental criminal          Intentional misrepresentation of               Computer Systems
  law pertaining to the Tennessee River            health care services, expenses,               Accessing a TVA computer
   system and its watershed, along with           billings, needs, or coverage that               without authorization or
  any violations relating to TVA land and        results in unauthorized payments               exceeding authorized access.
                  facilities.                              or other benefits.




           Workers’                                Employee Misconduct                              Special Projects
       Compensation Fraud                             Misuse of TVA furnished                   Management requests, data
       Employee fraud, medical fraud,            equipment, travel voucher fraud,              mining and predictive analysis,
        premium fraud, and employer              and a multitude of miscellaneous                Congressional and Board
      fraud, most often a false claim of            matters of abuse, conflict of                   requests, and fraud
         disability to receive benefits.         interest, and alleged violations of                 risk assessments.
                                                          code of conduct.




 20     TVA OIG Semiannual Report
Johnsonville Fossil Plant


                            TVA OIG Semiannual Report   21
                  REPRESENTATIVE AUDITS
                               TVA OIG Semiannual report




22 TVA OIG Semiannual Report
Summary of
REPRESENTATIVE AUDITS

During this reporting period, the TVA OIG completed 16 audits, reviews, and
agreed-upon procedures. Our work identified approximately $1.3 million in
questioned costs and helped TVA recover more than $558,000. This work
also identified numerous opportunities for TVA to improve its programs and
operations. Below is a discussion of reports issued this period in the following
areas: (1) contract compliance audits, (2) corporate governance and finance
audits, (3) IT audits, and (4) operational audits.




Contract Audits                               rate adjustments should have               used billing rates that
                                              been a credit due to TVA of                were not provided for by
During this semiannual period,                $564,765. The contractor                   the contract.
we completed five compliance                  agreed with our calculations
audits of contracts with                      and plans to provide a               VV We audited $34.4 million
expenditures totaling                         credit to TVA for the total             in costs billed to TVA
$173.6 million and identified                 amount due.                             by a contractor for relocation
potential overbillings of about                                                       services. The relocation
$1.3 million. Highlights                   VV We audited $2.6 million in              services included relocation
of our completed compliance                   costs billed by a contractor            policy counseling to
audits follow.                                for vacuuming services at TVA           employees and their families,
                                              fossil plants. We determined            relocation accounting and,
VV We audited a contractor’s                  the contractor overbilled TVA           home sale, destination,
   calendar year 2011 rate                    $254,060 including:                     mortgage, moving, and
   adjustments which totaled                                                          property management
   a credit of $134,544 based                 vv $153,619 due to the use of           services. We determined the
   on $71.9 million of billed                    ineligible firm price billings.      contractor overbilled TVA an
   costs. The contract, which                                                         estimated $347,359, which
   provided for the contractor                vv $60,991 for hydroblasting            included $219,124 in storage
   to complete engineering,                      work which was not                   costs, $74,498 in interest
   licensing, construction, and                  included in the contract             costs, and $53,737 in other
   startup operations of a single                scope.                               relocation services costs.
   Bellefonte Nuclear Plant unit,
   required the contractor to                 vv $20,229 of ineligible             VV We audited $27.7 million
   adjust its labor and general                  billings for materials and           in costs billed to TVA
   and administrative billing rates              miscellaneous costs.                 by a contractor for the
   to its actual costs incurred                                                       WBN Plant’s Unit 1 2011
   each year. Based on the                    vv $19,221 of labor billings            refueling outage. We
   methodology included in the                   that was overstated                  determined the contractor
   contract, we determined the                   because the contractor               overbilled TVA an estimated



                                                                                       TVA OIG Semiannual Report    23
     $215,042, which included          not have been incurred if         estimated $15,667, including
     $186,798 in nonmanual labor       they had been appropriately       $9,285 in ineligible overtime
     costs and $28,244 in craft        classified as hourly craft        labor costs and $6,382 in
     labor costs. In addition, the     superintendents.                  excessive and ineligible travel
     contractor did not use the                                          and miscellaneous costs;
     hourly craft superintendent     VV We audited $37 million           and (2) TVA’s calculation of
     classification provided for        in costs billed to TVA           overbilled temporary living
     in TVA labor agreements            by a contractor for              allowance costs (which
     and, instead, classified all       providing project planning,      had been disputed by the
     superintendents as nonmanual       management, oversight, and       contractor) was accurate.
     employees, including six           environmental services to        We also found several
     employees promoted from            assist TVA in the recovery and   instances of inadequate
     craft general foreman.             remediation associated with      contract administration,
     Because a 15 percent               the spill of 5.4 million cubic   including (1) $266,788 paid
     general and administrative         yards of coal ash from an on-    by TVA for a labor
     cost markup is applied to          site landfill at the Kingston    classification which was not
     nonmanual labor, TVA paid an       Fossil Plant during 2008. We     included in the contract’s
     additional $35,867 for these       determined (1) the contractor    “Schedule of Prices,”
     six employees, which would         had overbilled TVA an




                                                                                   Kingston Fossil Plant




24    TVA OIG Semiannual Report
Nottley Dam




    (2) $21,717 in additional travel   an external auditor; (3) completed   We applied four agreed-
    costs paid by TVA which            a mandated review of TVA’s           upon procedures requested
    could have been avoided if         compliance with the IPIA, as         solely to assist management in
    temporary living allowance         amended; and (4) audited TVA’s       determining the validity of the
    compensation terms had             meter testing process.               WP payout awards for the year
    been included in the original                                           ended September 30, 2012. In
    contract, and (3) the contractor   Agreed-Upon Procedures               summary, we found:
    did not obtain advance             Applied to 2012 Winning
    written approval from TVA          Performance Payouts                  VV The FY 2012 WP goals were
    prior to billing subcontract,      TVA’s WP Incentive Plan is a            properly approved.
    temporary living allowance,        performance management
    and relocation costs.              program designed to promote          VV The actual year-to-date
                                       teamwork, focus on continued            amounts for September 2012
  Corporate
                                       high performance, and motivate          for all the measures on the
  Governance and
                                       and reward employees for                Strategic Business Unit and
  Finance Audits
                                       achieving strategic objectives and      Business Unit scorecards
  During this semiannual period,       critical success factors. The WP        agreed with the respective
  Corporate Governance and             program is based on the principle       supporting documentation
  Finance Audits (1) applied           that operational improvements,          provided.
  agreed-upon procedures related       reduced costs, and improved
  to TVA’s 2012 WP payout;             revenues can be achieved by          VV A comparison of the actual
  (2) monitored the audit of TVA’s     applying management focus and           year-to-date amounts for
  FY 2012 financial statements by      offering monetary incentives.           the three incentivized TVA


                                                                               TVA OIG Semiannual Report      25
  Corporate balanced scorecard      Commission. The contract             noted TVA has overstated the
  measures to the amounts in        required the work be performed       amount it had subsequently
  the definition sheets noted       in accordance with Government        recovered by $1,109,769. The
  one exception related to the      Auditing Standards. Our              overstatement resulted because
  Nuclear Equivalent Availability   monitoring of this work disclosed    TVA did not include unrecovered
  Factor measure, but this did      no instances where the firm          amounts from recovery audits
  not result in a change to the     did not comply, in all material      performed by a contractor.
  payout. The three incentivized    respects, with Government
  TVA Corporate balanced            Auditing Standards.                  TVA Meter Testing
  scorecard measures agreed                                              In April 2011, TVA moved from
  with the underlying support.      TVA FY 2012 Compliance               an end-use billing process where
                                    with the Improper                    distributors’ wholesale bills were
VV The FY 2012 WP payout            Payment Information Act              generated based on usage data
   percentages were provided by     of 2002                              provided by the distributor to a
   the Metrics and Performance      The OIG performed an audit of        wholesale billing process where
   Analysis organization on         TVA’s compliance for FY 2012         the wholesale bills are based on
   October 21, 2012. Although       with the IPIA, as amended.           TVA’s reading of its own meters.
   a subsequent change to           In summary, we found TVA             TVA’s meter testing was put in
   the actual year-to-date          was in compliance with IPIA          place as a key internal control
   amount for the Net Cash          requirements that were applicable    in the revenue recognition
   Flow measure was received        to TVA. In our opinion, TVA was      process after this change in
   October 30, 2012, the change     only required to comply with the     billing processes. Since it is a key
   did not impact any payout        IPIA requirement to conduct a        control, we performed an audit
   percentages.                     program specific risk assessment.    of the adequacy of TVA’s process
                                    TVA performed a risk assessment      for testing meters that are owned
Oversight of the FY 2012            for FY 2012 and determined the       and read by TVA. Our audit
Financial Statement Audit           primary program susceptible          included (1) evaluating whether
TVA contracted with the             to improper payments was its         TVA meter testing policies and
independent public accounting       Supply Chain programs. TVA           procedures met or exceeded
firm of Ernst & Young LLP, to       calculated the total amount of       identified industry standards,
audit TVA’s balance sheet as of     payments subject to review as        (2) verifying that TVA tested the
September 30, 2012, and the         more than $9 billion. IPIA defines   meters within the applicable
related statements of income,       significant improper payments as     time limits in compliance with
changes in proprietary capital,     $10 million of all program           TVA meter testing policies and
and cash flows for the year. This   activity payments and                procedures, and (3) determining
also included the audit of TVA’s    2.5 percent of program outlays.      if TVA has processes in place
internal control over financial     TVA’s improper payments totaled      to identify all meters used
reporting as of fiscal year-        more than $14 million and            to capture data for wholesale
end. The firm also reviewed         0.16 percent of program outlays.     billing purposes.
TVA’s FY 2012 interim financial     As a result, TVA’s improper
information filed on Form 10-Q      payments fell below the IPIA         TVA-owned meters are tested
with the Securities and Exchange    threshold amounts. We also           as part of the preventative



 26   TVA OIG Semiannual Report
maintenance program. The
meters are tested for functionality
and accuracy. Adjustments are
made if necessary, and the meter
may be replaced if adjustments
cannot be made to restore the
required accuracy. TVA utilizes
the Maximo system as the
inventory system-of-record for
its meters and to track actions
taken as part of the preventative
maintenance program. The
Itron Enterprise Edition system
contains information such as
meter constants necessary to
read the meter and actual meter
readings. This information
is communicated to the
Lodestar system for use in               Bull Run Fossil Plant
billing customers.

In summary, we determined TVA’s
meter testing (1) complies with        (2) develop a process or            (1) processes for (a) complying
TVA policies and procedures            procedure for reconciling           with NERC CIP standards for
regarding timeliness and               meter information included in       critical cyber asset identification
(2) meets identified industry          the Maximo, Itron Enterprise        and (b) self-reporting of CIP
standards. However, we noted           Edition, and Lodestar systems;      violations; (2) IT security and
areas for improvement in TVA’s         and (3) develop guidelines for      privacy practices as required by
meter testing processes including      acceptable documentation            the FISMA; (3) IT general controls
(1) verification of meter constants,   of meter tests, including           for river scheduling systems;
(2) reconciliation of meter            information requirements,           and (4) management of the Unix
information in TVA systems,            review, and maintenance. TVA        operating system.
and (3) consistency of testing         management concurred with our
documentation.                         recommendations and is taking,      Mitigation Plans to
                                       and in one case has taken, action   Address Self-Reported
We recommended TVA’s                   to address these issues.            Compliance Violations
Executive Vice President and                                               Not Filed Timely
Chief Energy Delivery Officer:         IT Audits                           As a registered entity defined by
(1) formalize the policy for                                               NERC, TVA is required to comply
testing and/or documenting             During this semiannual period, we   with electric reliability standards
meter constants as part of             completed four audits in the IT     promulgated by NERC, which
preventative maintenance;              environment pertaining to TVA’s     include the CIP standards. SERC


                                                                               TVA OIG Semiannual Report    27
                                                                            still implementing improvements
                                                                            in the areas of: (1) continuous
                                                                            monitoring management,
                                                                            (2) configuration management,
                                                                            (3) identity and access
                                                                            management, (4) risk
                                                                            management, (5) security
                                                                            training, (6) plan of action and
                                                                            milestones, and (7) contractor
                                                                            systems. In addition to TVA’s
                                                                            ongoing initiatives to address
                                                                            improvements, we recommended
                                                       Appalachia Dam       TVA implement additional
                                                                            improvements in its security
                                                                            configuration management
Reliability Corporation (SERC) is     reputational, or safety impact
                                                                            program. TVA management
the regional entity delegated by      to TVA. TVA management
                                                                            agreed with our findings
NERC to propose and enforce           agreed with our findings and
                                                                            and recommendations and
the reliability standards. We         recommendations and is
                                                                            is implementing its
performed this audit to determine     developing a remediation plan.
                                                                            remediation plan.
(1) if TVA’s process used to
identify NERC critical cyber assets   FISMA Controls
                                                                            IT General Controls for
aligns with NERC standards, and       Improving But More Still
                                                                            River Scheduling Systems
(2) TVA adheres to its process        Needs to be Done
                                                                            Could be Improved
used to determine self-reporting      FISMA is meant to bolster
                                                                            TVA is responsible for balancing
of CIP violations. While we found     computer and network security
                                                                            the competing demands of
TVA is properly identifying and       within the federal government.
                                                                            the Tennessee River and its
documenting critical cyber assets,    In accordance with FISMA and
                                                                            tributaries with respect to flood-
as defined by NERC standards,         guidance from the Office of
                                                                            damage control, navigation,
we identified one minor issue         Management and Budget, TVA
                                                                            dam safety, hydroelectric and
with TVA’s self-reporting of          and the TVA OIG are required
                                                                            renewable power production,
NERC CIP compliance violations.       to report on agency-wide IT
                                                                            recreation, water supply, and
Specifically, we found three of       security and privacy practices
                                                                            water quality through a highly
the four self-reporting mitigation    annually. In our 2012 review
                                                                            engaged and safe work force.
plans we reviewed were not            of TVA’s information security
                                                                            To support these operations,
filed with SERC within the            program, we found TVA had
                                                                            TVA’s river scheduling systems
30-day time frame defined by          generally improved controls in
                                                                            are used to develop, dispatch,
TVA’s procedure for resolving         the areas of: (1) contingency
                                                                            and monitor operating plans for
potential NERC compliance             planning, (2) incident response
                                                                            the impoundment and release
violations. We consider this issue    and reporting, (3) security capital
                                                                            of water from TVA-managed
to be low risk since it does          planning, and (4) remote access
                                                                            reservoirs for purposes of flood
not have any monetary,                management. However, TVA was
                                                                            damage reduction, navigation,



 28   TVA OIG Semiannual Report
power production, water quality,      management, configuration             maintenance and grounds and
water supply, and recreation. We      management, disaster recovery,        property management. Within
performed this audit to assess        and monitoring. We found the          FM, Facilities Programs and
the adequacy of general, logical,     Unix corporate processes for          Projects manages efforts for
and physical controls. We found       disaster recovery, system logging,    facility renovations, upgrades,
the river scheduling systems          change management, and user           major repairs, energy efficiency,
had weaknesses in each control        account management controls           sustainability, and other facilities’
area tested during the audit.         are appropriate. However,             needs. These efforts include
The lack of a robust overall IT       we identified weaknesses in           TVA’s Facilities Asset Preservation
system increases the potential        the existing security controls        (FAP) program, which was
risk of a cyber-attack, which could   of Unix operating systems             designed “to ensure core facility
compromise TVA’s ability to           that could potentially affect         related assets are maintained in a
manage the river system.              the confidentiality, availability,    condition to satisfy their intended
TVA management agreed                 and integrity of TVA systems          operational capabilities.” The
with our findings and                 considered significant to financial   FAP team is responsible for
recommendations and is                reporting. TVA management             gathering asset information,
implementing remediation plans.       agreed with our findings and          identifying deficiencies,
                                      recommendations and is                recommending corrective actions,
Unix Operating Security               developing a remediation plan.        and implementation planning of
Controls Could be                                                           approved projects.
Improved                              Operational Audits
Critical TVA business processes,                                            TVA’s facilities asset portfolio
such as asset management,             During this semiannual reporting      includes more than 34 million
payroll, and purchasing, rely on      period, Operational Audits            square feet of gross space
applications that are dependent       evaluated TVA’s efforts to identify   in about 3,446 structures,
on the underlying security and        and mitigate risks associated with    and a small number of these
general controls of the Unix          its buildings and infrastructure,     properties are not in use. From
operating system. These controls      assessed TVA’s risk for significant   2009 to 2011, FM identified 19
are used to manage access,            equipment failures in River           underutilized properties.
application and data changes,         Operations, and reviewed BFN          Two of these properties,
data backup, and application          Plant’s transition to a new fire      former coal plants, were
availability. When these controls     protection standard.                  decommissioned in 2011.
are ineffective, application data                                           A third property, part of TVA’s
may be lost, improperly changed,      Building and                          Muscle Shoals reservation,
or become unavailable disrupting      Infrastructure Risks                  is being mitigated under an
TVA business processes and            TVA Facilities Management             extensive redevelopment project,
allowing the opportunity              (FM) business unit is part of the     which includes the November
for fraud to occur. TVA has           Administrative Services strategic     2012 TVA Board approval of the
taken actions to close several        business unit and is responsible      possible sale of 1,000 acres of
OIG audit recommendations             for managing TVA’s facilities         the Muscle Shoals property. In
resulting in improved IT general      portfolio and providing services      addition, TVA established the
controls in the areas of change       across TVA, such as building          Challenged Properties Program



                                                                                TVA OIG Semiannual Report     29
(CPP) in March 2012 to develop          properties according to CPP          River Operations Engineering
strategies for proper handling          guidelines; (3) improve program      (ROE) is responsible for
of underutilized or vacant              communications to better define      implementing and managing
properties.                             FAP program boundaries and           the System and Component
                                        update and coordinate with sites     Health (SCH) program. The
Because of the importance of            where projects are scheduled         SCH program includes the
proper maintenance to the safe,         or ongoing; (4) leverage or          performance of condition
efficient, and effective operation      develop tools to centralize asset    assessments (CA) on individual
of assets, we initiated this audit to   information, project planning        pieces or groupings of
evaluate TVA’s efforts to identify      and prioritization, facilities       equipment, components, or
and mitigate risks associated with      conditions, and lessons learned;     systems (collectively, “assets”)
its buildings and infrastructure.       and (5) obtain the resources         within Hydro Production.
We determined FM’s FAP                  necessary to complete a new          According to ROE personnel,
program is adequately designed          database deployment and              the ultimate goal of the process
to identify and mitigate the risks      address weaknesses in the current    is to maximize equipment and
of building and infrastructure          database. TVA management             system reliability and availability
failures, and FM’s processes for        generally agreed with our            by maintaining a complete
remediating identified risks are        recommendations and is taking        inventory of those assets and
reasonably effective. However,          corrective actions.                  their condition.
we found TVA’s risk exposure
from building failures is elevated      Risk for Significant                 In response to TVA’s July 2011
because the identified risks            Equipment Failures in                Enterprise Risk Management
exclude underutilized properties,       River Operations                     update, we assessed the risk for
and FAP funding has not been            TVA River Operations and             significant equipment failures in
adequate to address the risks           Renewables (ROR) business unit,      ROR. We determined ROE’s SCH
in the long term. We also               part of the Generation strategic     process is adequately designed
identified opportunities to             business unit, is responsible        to identify potential hydro
improve some FAP program                for balancing the competing          production equipment failures;
and related FM processes.               demands of the Tennessee River       however, we found the SCH
                                        and its tributaries with respect     process could be improved.
We recommended TVA                      to flood-damage control,
management take actions                 navigation, dam safety,              We made recommendations to
to: (1) determine the level             hydroelectric power production,      TVA management to:
of risk exposures TVA can               recreation, water supply, and        (1) standardize processes for
accept from continued building          water quality. Within ROR,           updating the asset inventory
deterioration and provide               Hydro Production manages and         subject to CA and communicating
adequate program funding                operates TVA’s 29 conventional       results of CA, (2) reinforce and
where possible; (2) identify a          hydro production plants and the      document the CA review process,
process owner or cross-functional       Raccoon Mountain Pumped-             (3) provide timely updates to
team to identify, manage,               Storage Plant (with a total          engineering drawings,
and mitigate underutilized              capacity of 113 generating units).   (4) implement guidelines for




 30   TVA OIG Semiannual Report
scoring fire protection and           the BFN transition to the NFPA      Group’s mitigation strategy, as
suppression systems, (5) continue     805 program and determined          provided in the Enterprise Risk
efforts to correct discrepancies in   the Nuclear Power Group’s           Management documentation,
reports provided to management,       delays in transitioning to          does not include consideration of
and (6) implement an equipment        NFPA 805 adversely impacted         the consequences of not meeting
condition assessment access           BFN’s ability to meet the           the March 2013 deadline, which
review process. TVA management        2012 commitment date.               would include NRC-assessed
generally agreed with our             Specifically, historical            penalties. TVA management
recommendations and has taken         indecisiveness coupled with         agreed with our findings and
or is taking actions to address       a lack of due diligence and         has taken action to address our
these recommendations.                inadequate attention to             recommendation to develop
                                      emerging industry fire protection   contingency plans and
Browns Ferry Fire                     regulations contributed to          continue to monitor project
Protection                            revising the commitment date.       activities related to the new
In May 2004, the Nuclear              In addition, the Nuclear Power      commitment date.
Regulatory Commission (NRC)
incorporated the National Fire
Protection Association’s (NFPA)
Standard 805 as a voluntary
alternative to the existing
fire protection standards
as published in Section
50.48, “Fire Protection,” and
Appendix R of the 10 Code of
Federal Regulations (10 CFR
50). On March 4, 2009, the
TVA committed to the NRC to
transition BFN Plant to NFPA
805 by a license amendment
date of March 4, 2012.

TVA has included the BFN
NFPA 805 transition project as
part of fire protection risk in its
Enterprise Risk Management
process. TVA did not meet the
NFPA 805 transition date for
License Amendment Request
Submittal of March 2012 and
                                       Browns Ferry Nuclear Plant
revised its commitment date
to March 2013. We reviewed




                                                                             TVA OIG Semiannual Report   31
REPRESENTATIVE EVALUATIONS
      TVA OIG Semiannual report
Summary of
REPRESENTATIVE EVALUATIONS

During this reporting period, Evaluations completed six reviews. Three of
the reviews were part of a series to evaluate TVA actions to address key risks,
including outage scheduling risk, physical assaults risk, and load forecast
risk. Evaluations also completed a review of coal terminals supplying TVA
and TVA’s living allowance. Below is a description of the results for five of the
projects completed.
                                                                                      Shawnee Fossil Plant




TVA’s Outage Scheduling                     total financial impacts through         Availability (Asset Availability
Risk                                        minimizing both replacement             Optimization Process) in regard
As part of a series of reviews              power costs and impacts to              to the use of Asset Availability in
to evaluate TVA’s actions to                strategic business                      entering outages.
address key risks, we reviewed              unit budgets.
TVA’s outage scheduling                                                             We recommended the Vice
risk. Outage scheduling was                 The objective of this review            President, System Planning:
identified as a top five strategic          was to evaluate TVA’s outage            (1) work in conjunction with
business unit risk in the Internal          scheduling risk to identify             the Asset Availability owners
Process and Procedures Risk                 opportunities to improve                to determine if a control can
category in FY 2011. The risk               mitigation strategies and assess        be added to Asset Availability
refers to failure in coordination           whether mitigation strategies           to prevent outages from being
of the outage schedule for                  are designed appropriately to           entered without first completing
TVA. Uncoordinated generator                address the identified risk. We         the Outage Concurrence Process,
outages could cause threats to              found the mitigation strategy           (2) take steps to make sure that
transmission reliability, negative          for addressing TVA’s outage             quality checks are performed
impacts to operation flexibility,           scheduling risk was designed            as prescribed in the Outage
and missed opportunities to                 appropriately and has reduced           Concurrence Process, and
minimize financial impacts of               the risk. However, opportunities        (3) work in conjunction with the
outages. Outage schedules are               exist to improve the outage             owner for the Asset Availability
coordinated for the business                scheduling process. We found:           Optimization Process to address
planning time period, which is              (1) the control overseeing the          conflict between the Outage
typically five years. Generator             Outage Concurrence Process is           Concurrence Process and the
and transmission outages                    manual and time consuming;              Asset Availability Optimization
impacting net power delivery to             (2) the control in place over           Process to align the process
the grid should be scheduled                quality checks is not being             of entering outages into Asset
to combine the transmission                 completed; and (3) the Outage           Availability. Management
and generator work into one                 Concurrence Process does not            agreed with the findings and
outage, where possible, meeting             align with SPP-30.004, TVA Chief        recommendations and plans to
NERC compliance, operational                Operating Officer Approved              take actions to address them.
flexibility, labor constraints, and         Method to Optimize TVA Asset



                                                                                        TVA OIG Semiannual Report    33
                                                                                             Colbert Fossil Plant




Physical Assaults Risk               plan, (2) expanding employee         could lower the risk of similar
As part of a series of reviews       education, (3) replacing             future incidents.
to evaluate the TVA actions to       communication infrastructure and
address key risks, we reviewed       equipment, and (4) implementing      We recommended a procedure
TVA’s physical assaults risk.        a guard program.                     be created for individuals who
Physical assaults risk was                                                receive workplace-violence
identified in the 2011 Enterprise    Our review found TVA has             incident reports detailing
Risk Management Program.             implemented or is implementing       which workplace-violence
The objective of our review          actions to reduce the risk           incidents should be reported
was to evaluate TVA employee,        of physical assaults on TVA          to TVA Security and Emergency
contractor, and visitor physical     employees, contractors, and          Management along with a
assaults risk, identifying           visitors. The mitigations were       uniform way of submitting that
opportunities to improve             generally designed appropriately     information. TVA management
mitigation strategies and assess     to address the risk. However,        agreed with the findings and
whether mitigation strategies        TVA identified that workplace-       recommendations and plans to
are designed appropriately           violence incidents are not always    take corrective actions.
to address the identified risk.      reported to TVA Security and
TVA developed a mitigation           Emergency Management. This           TVA’s Load Forecast Risk
strategy in order to reduce the      prevents TVA from recognizing        As part of a series of reviews
risk that included: (1) creating a   emerging patterns and                to evaluate the TVA actions to
comprehensive physical security      identifying possible training that   address key risks, we reviewed



 34   TVA OIG Semiannual Report
TVA’s load forecast risk. Load       We recommended the Senior            approximately $2.3 billion on coal
forecasting is used by power         Vice President, Strategy,            in FY 2011, and coal procurement
companies to anticipate the          Financial Planning & Business        has historically been at significant
amount of power needed to            Development, enhance the             risk of fraud. TVA received more
supply the demand.                   load forecast documented             than 18 million tons of coal from
                                     mitigation strategy to include the   four terminals between January
Load forecast was identified as      mitigations planned or already       2010 and June 2011.
a top five strategic business unit   occurring but not listed as part
risk in the Long Range Planning      of the strategy, and implement       The objective of this review was
Process Risk Category in FY 2011.    measures to reduce the likelihood    to determine if TVA is properly
The objective of this review was     of inadvertent modifications         monitoring and accounting for
to evaluate TVA’s load forecast      to data until the Demand &           coal being shipped to and from
risk to identify opportunities to    Data Consolidation Process           terminals. The scope of this
improve mitigation strategies        is completed. Management             review included shipments to and
and assess whether mitigation        agreed with the findings and         from terminals from January 2010
strategies are designed              recommendations and has taken        through June 2011 and flyover
appropriately to address the         corrective actions.                  inventory adjustments from June
identified risk.                                                          2007 through calendar year 2011.
                                     Coal Terminals Supplying
While Economic Load and              TVA                                  Based on the results of our
Revenue Forecast is taking           The OIG performed this coal          review, improvements are
actions to mitigate risk             review because TVA spent             needed in both TVA’s monitoring
associated with load forecasting,
we found opportunities
to improve the mitigation
strategy documentation. The
documented mitigation strategy
does not reflect planned actions
to improve data integrity or
the regular updates to the
forecast models and economic
drivers. Additionally, we found
mitigations are generally
designed appropriately.
However, we noted Economic
Load and Revenue Forecast
did not have any compensating
controls to prevent inadvertent
modifications to data until the
Demand & Data Consolidation
Process is completed.                  Pickwick Dam




                                                                              TVA OIG Semiannual Report    35
of coal weight and quality           We found TVA has performed           Several issues related to TVA’s
and the flyover inventory            limited monitoring of coal weight    flyover adjustment process were
adjustment process for terminals.    and quality variance information     identified:
Without improvements, TVA’s          and scales at TVA’s fossil plants
susceptibility to fraud remains      need improvements. This impairs      VV The current process does not
high. Moreover, improvements         TVA’s ability to properly monitor       provide accurate data for the
that would reduce TVA’s risk in      and account for coal being              coal terminals.
this area were laid out in a fuel    shipped to and from the terminals
assurance plan presented to          and presents an opportunity          VV There were discrepancies
the OIG prior to the start of FY     for fraud. In addition,                 between the Fuel Handling
2009. The fuel assurance plan,       investigations are performed            Systems group’s calculations
which was developed in part          for average monthly shipment            and Fuels Accounting’s
because of our previous coal-        weight variances that exceed            calculations when booking
related work that demonstrated       a tolerable range; however,             the quarterly flyover
significant fraud risk, remains      there are variances for individual      adjustments. Additionally,
partially unimplemented for          shipments that also may warrant         some of the adjustments were
terminals. The plan lays out         investigation.                          booked incorrectly.
actions, such as ensuring accurate
certified weighing at the plant      TVA arranges flyover                 VV The timeliness of
and comparisons of weight and        measurements and density                communicating inventory
sample data that would reduce        checks on coal inventories at           adjustments to the terminals
TVA’s coal procurement risk          the terminals as part of the            could be improved.
at terminals.                        inventory adjustment process.
                                                                          VV There were differences in the
                                                                             inventory records maintained
                                                                             by the terminals and TVA.
                                                                             In addition, there was no
                                                                             reconciliation between TVA
                                                                             and terminal inventory records,
                                                                             which could lead to TVA
                                                                             paying incorrect storage fees
                                                                             with no method of detection.

                                                                          VV Investigations into inventory
                                                                             adjustment variances were
                                                                             based only on weight.

                                                                          We recommended the Vice
                                                                          President, Coal and Gas Services:
                                                                          (1) continue plans to implement
                                                    Allen Fossil Plant    monitoring of terminal inbound
                                                                          shipments from the mine to the



 36   TVA OIG Semiannual Report
terminal, (2) require a review of
single shipment weight variances
when warranted, (3) implement
a solution to correct the flyover
process inaccuracies, (4) require
a reconciliation of differences
between TVA and terminal
inventory records be performed
on a routine basis, (5) require
a review of the dollar values of
inventory flyover adjustment to
determine if an investigation is
necessary, and (6) take actions
to decrease the time between
when the adjustment is booked
by TVA and notification is
made to the terminals. We
recommended the Director,
Business Services, continue
to take steps to verify coal
terminal inventory adjustments
and retain documentation to
support the calculations. We also
recommended the Vice President,         Widows Creek Fossil Plant

Generation Engineering,
certify the scales at the TVA
plants that receive coal from         meeting policy requirements as       As a result of issues with
terminals and repair or replace       well as management approval. If      living-allowance benefits for
the sampler at Gallatin Fossil        approved, a new or transferring      TVA contractors, we initiated
Plant. Management generally           employee may receive financial       a review of TVA’s temporary
agreed with the findings and          assistance for temporary living      living allowance to determine if
recommendations and has               quarters for up to 120 days. TVA’s   employees who received these
taken or plans to take                policy states that an employee       benefits from FY 2010 through
corrective actions.                   will receive $1,850 for the first    FY 2012 met all TVA and federal
                                      30 days and $1,550 for each          eligibility requirements. We
TVA’s Living Allowance                subsequent 30-day period, up to      found the employees tested
From FY 2010 through FY 2012,         a maximum of $6,500. TVA uses        during this review met all
TVA paid more than $3 million         a third-party vendor that provides   eligibility requirements. This
in temporary living allowances,       relocation services to handle the    report did not include any
which are included in TVA’s           majority of the relocation process   recommendations and was issued
relocation program, and eligibility   for the employee.                    for informational purposes only.
for an allowance is based on



                                                                              TVA OIG Semiannual Report   37
      REPRESENTATIVE INVESTIGATIONS
                               TVA OIG Semiannual report




38 TVA OIG Semiannual Report
Summary of
REPRESENTATIVE INVESTIGATIONS

This semiannual period, our investigative results include a former safety
manager’s conviction on eight counts of major fraud; a former Tennessee
county commissioner’s guilty plea for conducting a Ponzi scheme based on
fraudulent representations that he was involved in the Kingston Fossil Plant
cleanup; and a father and son convicted on charges of wire and mail fraud for
their involvement with a former president of a local utility. Our investigations
also led to a former TVA officer’s indictment for federal violations including
alleged false statements to TVA and violation of the International Emergency
Economic Powers Act, and a former employee’s federal indictment for alleged
theft. Our administrative results include a workers’ compensation case which
is estimated to save TVA more than $770,000. Representative highlights of our
                                                                                                      Watts Bar Nuclear Plant
activities follow.



Former Safety Manager                              The Shaw Group contracted with                   It should be noted that during
Convicted of Major Fraud                           TVA to provide maintenance                       2008, also based on an OIG
for Falsifying Injury                              and modifications to the                         investigation, a $6.2 million civil
Reports at TVA Nuclear                             three facilities and to provide                  settlement was reached between
Plants                                             construction for the BFN                         SWCI and the United States,
Following a 12-day trial in federal                Unit 1 reactor restart. Mr. Cardin               acting through the DOJ and
court, a jury convicted a former                   was convicted of devising a                      on behalf of TVA. SWCI paid
Stone & Webster Construction,                      scheme that resulted in false                    penalties to TVA and DOJ and
Inc. (SWCI), safety manager                        and misleading injury rates and                  provided restitution to TVA
of eight counts of major fraud                     lost-time figures, all of which                  for the ill-gotten safety bonuses.
against the United States on                       were used by the Shaw Group                      Additionally, SWCI entered
November 7, 2012.1 The jury                        to collect safety bonuses worth                  into a “Corporate Integrity and
heard evidence that Walter                         more than $2.5 million from                      Monitoring Agreement” with
Cardin—as safety manager for                       TVA. He was also convicted                       TVA OIG.
the Shaw Group (formerly SWCI)                     of providing the false numbers
at BFN, SQN, and WBN plants—                       at the three plants in 2004 and                  Individual Purportedly
provided false and misleading                      2005, and at BFN and SQN                         Gathering Funds for
information about injuries at                      during 2006.                                     Kingston, Tennessee,
those facilities. The jury heard                                                                    Cleanup Pleads Guilty in
evidence of more than 80 injuries,                 U.S. Attorney Bill Killian stated                Federal Court
including broken bones, torn                       this conviction “will put all                    We previously reported a January
ligaments, hernias, lacerations,                   Tennessee Valley Authority                       2012 13-count Information was
and shoulder, back, and knee                       contractors on notice that criminal              filed in federal court charging
injuries Mr. Cardin improperly                     violations to maximize profits with              a former Robertson County,
reported.                                          TVA will not be tolerated in the                 Tennessee, commissioner, Edward
                                                   Eastern District of Tennessee.”                  Shannon Polen, with five counts



1
    On April 11, 2013, Walter Cardin was sentenced to serve 78 months in prison followed by two 	
    years of supervised release.                                                                        TVA OIG Semiannual Report    39
                                                                                           Kingston Fossil Plant




of bank fraud, three counts each    promising to invest their money        Mr. Polen promised the
of wire and mail fraud, and two     in one or more of three sham           investments would generate
counts of money laundering. On      investment opportunities.              significant profits, knowing
December 10, 2012, Mr. Polen        Those investments included the         the investments were entirely
pled guilty to six counts of the    purchasing and reselling of John       fictitious. He had held various
Information.                        Deere equipment, purchasing            official and political positions
                                    materials for municipal greenway       in Robertson County, and he
The investigation was               projects, and purchasing               used his reputation to convince
precipitated after the OIG          materials/supplies to assist with      victims he had access to insider
received complaints regarding       the cleanup of the coal ash spill at   information enabling his
fraudulent investment schemes       TVA’s Kingston Fossil Plant. The       involvement in the investment
against Tennessee Valley            coal ash cleanup scheme was the        opportunities.
residents and the negative impact   largest scheme run by Mr. Polen
the scheme might have on TVA’s      with the greatest dollar loss to       Mr. Polen defrauded
reputation. Our investigation       investors. The victims of the coal     approximately 77 victims,
revealed Mr. Polen fraudulently     ash scheme thought they were           including 4 nonprofit
obtained at least $16 million       helping TVA fund the clean-up          organizations, of at least
dollars from investors by falsely   work at Kingston.                      $16 million dollars. Some


 40   TVA OIG Semiannual Report
victims’ money was used to repay     Mr. Ingram; and, during that           Mr. Walton II’s trial that he would
other victims, as is normal for a    same time, Mr. Walton II paid          not have approved the payment
Ponzi scheme; however, a large       $51,500 directly to Mr. Ingram         of invoices submitted to the
portion of the victims’ money was    or one of Mr. Ingram’s creditors.      utility by Mr. Walton II and
used to pay Mr. Polen’s immense                                             IntelliNet Consulting had
gambling debts.                      The payments made by                   Mr. Walton II and IntelliNet
                                     Mr. Walton II to Mr. Ingram            Consulting not continued making
TVA OIG was the lead                 were not disclosed to members          payments to Mr. Ingram and
investigative agency, joined by      of CDE’s Board or employees.           Mr. Ingram’s creditor.
the Internal Revenue Service         The United States alleged the
Criminal Investigation Division      payments from Mr. Walton II were       Mr. Walton, Sr.—whose company,
(IRS CID); Tennessee Bureau of       bribes and kickbacks, and the          Intelligent Surveillance (unrelated
Investigation; Special Inspector     concealment of these payments          to his son’s business), also
General for the Troubled Asset       from the utility deprived it and its   contracted with the utility—
Relief Program; Hendersonville,      customers of the honest services       participated in a similar scheme
Tennessee, Police Department;        of Mr. Ingram.                         with Mr. Ingram and pled guilty
Regional Organized Crime                                                    to eight counts of mail fraud
Information Center; and              As previously reported, during         and five counts of wire fraud on
the Tennessee Attorney               May 2012, Mr. Ingram pled guilty       January 14, 2013. Sentencing
General’s Office.                    to two counts each of mail and         hearings will be scheduled for
                                     wire fraud related to this scheme      these three defendants. Each
Municipal-Utility                    and to a separate scheme               faces up to 20 years in prison,
President and Contractors            involving Mr. Walton II’s father,      fines of up to $250,000, and
Convicted                            Tommy L. Walton, Sr. (discussed        orders requiring payments of
On January 23, 2013, a jury found    below). Mr. Ingram testified at        restitution to the utility. CDE
Tommy L. Walton II guilty on nine
counts of mail fraud and seven
counts of wire fraud after a
week-long federal trial.
According to testimony at
trial, on November 3, 2008,
Mr. Walton II was hired as a
consultant for the Clarksville,
Tennessee, Department of
Electricity (CDE) by Rick R.
Ingram, Sr., then CDE’s president.
From that time through
June 29, 2009, Mr. Walton II and
his firm, IntelliNet Consulting,
LLC, invoiced and received
from the utility more than            Wilson Dam
$150,000. The payment of
each invoice was approved by

                                                                               TVA OIG Semiannual Report    41
requested TVA OIG conduct this      TVA. Mr. Bajestani was arrested     investments there without
investigation, and CDE’s Board      by federal agents, including a      authorization from the U.S.
gave its full cooperation.          TVA OIG Senior Special Agent,       Office of Foreign Assets Control.
                                    upon his arrival in Atlanta,
Former Nuclear                      Georgia, from Dubai on              A superseding indictment was
Construction Vice                   February 3, 2013. Mr. Bajestani     filed the day after Mr. Bajestani’s
President Indicted in               pled not guilty in court on         arrest, asserting violations already
Federal Court                       February 4, 2013.                   mentioned and adding two
As a result of an investigation                                         counts of filing false tax returns,
conducted by U.S. Homeland          The indictment charges              three counts of failure to report
Security Investigations, the        Mr. Bajestani filed a false         foreign bank accounts, and two
IRS CID, the FBI, and the TVA       document with TVA to withdraw       counts of international money
OIG, a former WBN Unit 2            $1.5 million from his deferred      laundering. Mr. Bajestani was
Vice President (VP), Masoud         compensation account when he        subsequently released, being
Bajestani, was indicted on four     was employed as WBN Unit 2          required to post $1 million bond,
felony charges by a federal grand   VP and that Mr. Bajestani then      submit to electronic monitoring,
jury in Knoxville, Tennessee,       conspired with others to send       and execute conditional trust
on December 4, 2012. The            $600,000 of that amount to          deeds allowing for forfeiture of
indictment alleges Mr. Bajestani    Iran for financial investment.      two properties in the event of a
violated the International          Economic sanctions have been        violation of any release condition.
Emergency Economic Powers Act       imposed against Iran, and it
and made false statements to        is unlawful to make financial       Former Employee
                                                                        Indicted on Federal Theft
                                                                        Charge
                                              Watts Bar Nuclear Plant   Based on concerns from
                                                                        TVA management, TVA OIG
                                                                        investigated questionable
                                                                        charges exceeding $10,000 on a
                                                                        TVA corporate fuel card assigned
                                                                        to a Louisville, Tennessee,
                                                                        Material Handler. A review of
                                                                        charges showed suspicious
                                                                        activity, including 71 transactions
                                                                        at stations across East Tennessee
                                                                        during June 2012 and
                                                                        25 transactions during the first
                                                                        eight days of July 2012.

                                                                        Our investigation found the
                                                                        individual fueled his personal
                                                                        vehicle and then enabled others
                                                                        to fuel their vehicles with his



 42   TVA OIG Semiannual Report
                                                                          by seeking to benefit personally
                                                                          from his official position by
                                                                          requesting personal loans from
                                                                          subordinates. Our investigation
                                                                          found the supervisor asked for
                                                                          and received interest-free loans
                                                                          from two subordinates during
                                                                          2006-2007. Feeling the
                                                                          pressure of his authority, two
                                                                          subordinates loaned him a total
                                                                          of $1,700 ($1,600 from one
                                                                          employee; $100 from another).
                                                                          During the time the loans were
                                                                          made and throughout our recent
                                                                          inquiry, the supervisor completed
Boone Dam                                                                 five sessions of TVA annual ethics
                                                                          training and received five TVA
                                                                          WP payouts grossing more than
                                                                          $23,000. His repayments to the
  TVA card and pay him less than       substances. The U.S. Department    subordinates, however, did not
  retail cost for their gasoline. As   of Labor (DOL) oversees OWCP,      begin until 2012 and totaled
  a result of our findings to-date,    and we provided the DOL with       $750 on the larger loan and
  the individual, Jason R. King, was   information needed to terminate    nothing on the smaller one.
  charged on February 5, 2013,         the individual’s benefits. Our     As a result of our report to
  with a one-count indictment in       inquiry indicated the controlled   management, the supervisor
  U.S. District Court for theft of     substances Oxycodone and           was instructed to settle the
  government property (converting      Opana that the former employee     indebtedness and provide written
  the fuel card to his personal        misappropriated were paid for      notification from the lenders.
  benefit). He has been released       through his OWCP benefits.         He also received a written
  on bond pending trial.               Based on that violation, the       warning and served a two-week
                                       individual’s benefits were         unpaid suspension. He later
  Former TVA Employee’s                permanently forfeited. Avoided     resigned in lieu of termination.
  Office of Workers                    costs are estimated at $770,234.   The U.S. Attorney’s office
  Compensation Program                                                    declined prosecution in favor of
  (OWCP) Benefits                      Supervisor Disciplined             administrative remedies available
  Terminated, Resulting in             for Soliciting Loans from          to TVA.
  Costs Savings Exceeding              Subordinates
  $770,000                             The OIG received an allegation
  An OWCP benefits recipient           a supervisor violated a
  was successfully prosecuted in       federal ethics rule (5 C.F.R.
  the State of Kentucky on two         §2635.702, Use of Public Office
  counts of trafficking controlled     for Private Gain) and TVA policy



                                                                            TVA OIG Semiannual Report   43
              LEGISLATION & REGULATIONS
                               TVA OIG Semiannual report




44 TVA OIG Semiannual Report
Legislation & regulations

Section 4(a) of the Inspector General Act of 1978, as amended, provides
that the Inspector General shall review existing and proposed legislation
and regulations relating to programs and operations of such establishment
and make recommendations in the semiannual reports…concerning the
impact of such legislation or regulations on the economy and efficiency in the
administration of such programs and operations administered or financed by
such establishment or the prevention and detection of fraud and abuse in such
programs and operations.




In this section of our semiannual        the legislation. At times, we           particular statutes and bills and
report, it is our intent to address      may direct recommendations              their particular wording.
only current and pending                 to general positions and
legislation which relates to             issues, particularly when there         During this reporting period,
the economy or efficiency of             are multiple bills dealing              we are not making any
TVA operations when we have              with the issue. At other                recommendations to Congress
recommendations or comments              times, we anticipate making             regarding current or pending
to make to Congress regarding            recommendations relating to             legislation.




 Paradise Fossil Plant




                                                                                     TVA OIG Semiannual Report       45
  APPENDICES
TVA OIG Semiannual report
                                                                                           Appendix 1


INDEX OF REPORTING REQUIREMENTS UNDER THE INSPECTOR GENERAL ACT

 REPORTING          REQUIREMENT                                                                 PAGE
 Section 4(a)(2)    Review of Legislation and Regulations                                          45

 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                                23-43

                    Recommendations With Respect to Significant Problems, Abuses,
 Section 5(a)(2)                                                                                  23-43
                    and Deficiencies

                    Recommendations Described in Previous Semiannual Reports in
 Section 5(a)(3)                                                                                Appendix 4
                    Which Corrective Action Has Not Been Completed

                    Matters Referred to Prosecutive Authorities and the Prosecutions            Appendix 5
 Section 5(a)(4)
                    and Convictions That Have Resulted                                            39-43
 Section 5(a)(5)
                    Summary of Instances Where Information Was Refused                            None
 and 6(b)(2)

 Section 5(a)(6)    Listing of Audit and Evaluation Reports                                     Appendix 2


 Section 5(a)(7)    Summary of Particularly Significant Reports                                   23-43

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(8)                                                                                Appendix 3
                    Containing Questioned Costs

                    Status of Management Decisions for Audit and Evaluation Reports
 Section 5(a)(9)                                                                                Appendix 3
                    Containing Recommendations That Funds Be Put to Better Use

                    Summary of Audit and Evaluation Reports Issued Prior to the
 Section 5(a)(10)   Beginning of the Reporting Period for Which No Management                     None
                    Decision Has Been Made

 Section 5(a)(11)   Significant Revised Management Decisions                                      None

                    Significant Management Decisions With Which the Inspector General
 Section 5(a)(12)                                                                                 None
                    Disagreed

                    Information Under Federal Financial Management Improvement Act
 Section 5(a)(13)                                                                                 None
                    of 1996

                    Appendix of results of any peer review conducted by another Office of the
 Section 5(a)(14)   Inspector General during the reporting period and if none a statement of    Appendix 8
                    the date of the last peer review

                    List of outstanding recommendations from any peer review conducted by
 Section 5(a)(15)   another Office of the Inspector General, including a statement describing     None
                    the status of the implementation and why implementation is not complete

                    List of peer reviews conducted of another Office of the Inspector
                    General during the reporting period, including a list of any outstanding
 Section 5(a)(16)                                                                               Appendix 9
                    recommendations made from any previous peer review that remain
                    outstanding or have not been implemented




                                                                                   TVA OIG Semiannual Report   47
Appendix 2

OIG AUDIT REPORTS • Issued During the Six-Month Period Ended March 31, 2013

     Report Number                                                                         Questioned    Unsupported   Funds Put To
                     Title
     and Date                                                                                   Costs          Costs     Better Use

     CONTRACT AUDITS
     2012-14395
                     Jacobs Engineering Group, Inc.                                           $15,667            $0             $0
     12/13/2012
     2011-14327
                     Day & Zimmermann NPS, Inc.                                              $215,042            $0             $0
     01/18/2013
     2012-14576
                     Cartus Corporation                                                      $347,359            $0             $0
     01/18/2013
     2011-14326
                     G&A Environmental Contractors, Inc.                                     $254,060            $0             $0
     01/23/2013
     2012-14510
                     AREVA NP, Inc.                                                          $430,221            $0             $0
     02/22/2013
     CORPORATE GOVERNANCE AND FINANCE AUDITS
     2012-14825
                     Agreed-Upon Procedures for TVA FY 2012 Performance Measures                   $0            $0             $0
     11/07/2012
     2012-14886      TVA Compliance for FY 2012 with the Improper Payments
                                                                                                   $0            $0             $0
     03/11/2013      Information Act of 2002, as Amended
     2012-14886-01   Process Improvements for TVA’s Compliance with the Improper
                                                                                                   $0            $0             $0
     03/13/2013      Payments Information Act of 2002, as Amended
     2012-14607
                     TVA Meter Testing                                                             $0            $0             $0
     03/27/2013
     OPERATIONAL AUDITS
     2010-13627-01
                     Risk of Significant Equipment Failures in River Operations                    $0            $0             $0
     01/18/2013
     2012-14567
                     Building and Infrastructure Failure Risks                                     $0            $0             $0
     01/30/2013
     2011-13895
                     Browns Ferry Nuclear Plant Fire Protection                                    $0            $0             $0
     02/06/2013
     INFORMATION TECHNOLOGY AUDITS
     2012-14546
                     2012 Federal Information Security Management Act Evaluation                   $0            $0             $0
     11/16/2012
     2012-14596
                     River Forecast Center Cyber Security Audit                                    $0            $0             $0
     12/20/2012
     2012-14618
                     Unix Operating System Security Audit                                          $0            $0             $0
     01/23/2013
     2012-14437      TVA NERC CIP Critical Cyber Asset Identification and Self-Reporting
                                                                                                   $0            $0             $0
     02/05/2013      Gap Analysis
     TOTAL
                                                                                           $ 1,262,349           $0             $0
     AUDITS (16)




48     TVA OIG Semiannual Report
                                                                                                            Appendix 2

OIG Evaluation REPORTS • Issued During the Six-Month Period Ended March 31, 2013

 Report Number                                                                         Questioned       Unsupported   Funds Put To
                       Title
 and Date                                                                                   Costs             Costs     Better Use
 2011-13839
                       Coal Terminals Supplying TVA                                           $0                $0             $0
 11/05/2012
 2012-14506
                       Physical Assaults Risk                                                 $0                $0             $0
 12/13/2012
 2012-14776
                       TVA’s Living Allowance                                                 $0                $0             $0
 12/13/2012
 2012-14507
                       TVA’s Load Forecast Risk                                               $0                $0             $0
 01/17/2013
 2012-14577
                       TVA’s Outage Scheduling Risk                                           $0                $0             $0
 01/23/2013
 2012-14535
                       Master Key Program Management – Energy Delivery                        $0                $0             $0
 03/21/2013

 Total
                                                                                              $0                $0             $0
 EVALUATIONS (6)

 Note: A summary of or link to the full report may be found on the OIG’s Web site at www.oig.tva.gov.




 Fontana Dam




                                                                                              TVA OIG Semiannual Report          49
Appendix 3


TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • AUDITS

                                                                                Number              Questioned          Unsupported
    Audit Reports                                                             of Reports                 Costs                Costs

    A. For which no management decision has been made by
                                                                                         1              $903,698                     $0
       the commencement of the period


    B. Which were issued during the reporting period                                     5            $1,262,349                     $0

    Subtotal (A+B)                                                                       6            $2,166,047                     $0

    C. For which a management decision was made during the                                   1
                                                                                         6            $2,166,047                     $0
       reporting period

      1. Dollar value of disallowed costs                                                6            $2,039,310                     $0

      2. Dollar value of costs not disallowed                                            1              $126,737                     $0

    D. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                         0                     $0                    $0
       months of issuance

1
    The total number of reports for which a management decision was made during the reporting period differs from the sum of C(1) and 	
    C(2) when the same report(s) contain both recommendations agreed to by management and others not agreed to by management.




TABLE I • TOTAL QUESTIONED AND UNSUPPORTED COSTS • EVALUATIONS

                                                                                Number              Questioned          Unsupported
    Evaluation Reports                                                        of Reports                 Costs                Costs

    A. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       commencement of the period


    B. Which were issued during the reporting period                                     0                     $0                    $0

    Subtotal (A+B)                                                                       0                     $0                    $0

    C. For which a management decision was made during the
                                                                                         0                     $0                    $0
       reporting period

      1. Dollar value of disallowed costs                                                0                     $0                    $0

      2. Dollar value of costs not disallowed                                            0                     $0                    $0

    D. For which no management decision has been made by the
                                                                                         0                     $0                    $0
       end of the reporting period

    E. For which no management decision was made within six
                                                                                         0                     $0                    $0
       months of issuance
                                                                                               Appendix 3


TABLE II • FUNDS TO BE PUT TO BETTER USE • AUDITS

                                                                                          Number     Funds To Be Put
Audit Reports                                                                           of Reports     To Better Use

A. For which no management decision has been made by the commencement of the period             2         $9,100,000

B. Which were issued during the reporting period                                                0                  $0

Subtotal (A+B)                                                                                  2         $9,100,000

C. For which a management decision was made during the reporting period                         2         $9,100,000

  1. Dollar value of recommendations agreed to by management                                    0                  $0

  2. Dollar value of recommendations not agreed to by management                                2         $9,100,000

D. For which no management decision has been made by the end of the reporting period            0                  $0

E. For which no management decision was made within six months of issuance                      0                  $0




TABLE II • FUNDS TO BE PUT TO BETTER USE • EVALUATIONS

                                                                                          Number     Funds To Be Put
Evaluation Reports                                                                      of Reports     To Better Use

A. For which no management decision has been made by the commencement of the period             0                  $0

B. Which were issued during the reporting period                                                0                  $0

Subtotal (A+B)                                                                                  0                  $0

C. For which a management decision was made during the reporting period                         0                  $0

  1. Dollar value of recommendations agreed to by management                                    0                  $0

  2. Dollar value of recommendations not agreed to by management                                0                  $0

D. For which no management decision has been made by the end of the reporting period            0                  $0

E. For which no management decision was made within six months of issuance                      0                  $0




                                                                                       TVA OIG Semiannual Report   51
   Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING

As of the end of the semiannual period, final corrective actions associated with 21 audits and 3 evaluations reported in previous semiannual
reports were not completed. Presented below for each audit and evaluation are the report number and date and a brief description of
final actions planned to resolve the open recommendations and the date management expects to complete final action.


Report Number
                     Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


                     Review of TVA Actions to Protect Social Security Numbers and Eliminate Their Unnecessary Use
2007-11216
06/02/2008           TVA agreed to implement protective measures for applications and reports containing social security numbers, such as
                     restricting access and logging downloads. Management expects final action to be completed by May 31, 2013.


                     Distributor Review of Monroe County Electric Power Authority
2008-12007           TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and (2) recommend
05/13/2009           to the Board that additional financial metrics, including when cash reserves become excessive, be implemented in the
                     rate setting process. Management expects final action to be completed by September 30, 2013.

                     Distributor Review of Lewisburg Electric System
2008-12040           TVA agreed to (1) consider feasibility of a comprehensive guideline for permissible expenditures, and (2) recommend
05/13/2009           to the Board that additional financial metrics, including when cash reserves become excessive, be implemented in the
                     rate setting process. Management expects final action to be completed by September 30, 2013.


                     Hydroelectric Plant Automation – General, Physical, and Security Controls Review
2008-12127
09/24/2009           TVA agreed to implement the new access control system at all sites and further restrict access to key components.
                     Management expects final action to be completed by September 30, 2015.


                     Follow-up Review of TVA’s Role as a Rate Regulator – Use of Electric Revenues for Nonelectric Purposes
2009-12699
12/09/2010           TVA management agreed to determine when distributor reserves become excessive and should be returned to the
                     ratepayers in the form of rate reductions. Management expects final action to be completed by September 30, 2013.


                     Information Technology Organizational Effectiveness
2010-13366
04/05/2011           TVA management agreed with the audit findings and has provided detailed plans and target dates to implement the
                     audit recommendations. Management expects to complete final action by December 31, 2013.


                     Review of Physical and Logical Access for Contractors
                     TVA agreed to (1) create a cross-reference matrix of TVA roles to assets with the associated qualification/background
2010-13132           requirements needed to gain access to that asset and develop a process to restrict contractor access to sensitive data
06/15/2011           and assets until the proper clearances have been obtained and (2) ensure that requests for master keys by Energy
                     Delivery are sent to Physical Security to verify the proper security clearance has been obtained prior to issuing the key.
                     Management expects to complete final action by December 31, 2014.


                     Distributor Audit of Volunteer Energy Cooperative
2010-13285           TVA management agreed to work with Volunteer to address identified instances of noncompliance in the areas of use
11/16/2011           of revenues, financial reporting to TVA, and internal controls. TVA management also agreed to address two issues
                     related to oversight of distributors. Management expects to complete final action by September 30, 2013.


                     Federal Information Security Management Act Evaluation
2011-13760
11/17/2011           TVA management agreed to develop a personal identity verification plan that aligns with federal guidance for the use
                     of personal identity verification. Management expects to complete final action by August 31, 2013.
                                                                                                            Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Report Number
                Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


                Review of TVA Demurrage Costs
2010-13656      TVA agreed to review its contracts with Kinder Morgan and consult with the Office of the General Counsel to
12/20/2011      determine the feasibility of recovering demurrage charges. Based on a thorough review of historical records and
                support, TVA will seek $451,870 from Kinder Morgan related to demurrage charges accrued between 2002 and
                2012. Management expects to complete final action by December 31, 2013.


                Distributor Audit of Meriwether Lewis Electric Cooperative
2010-13659      TVA management agreed to recommend the TVA Board formally approve a use of revenues policy which expressly
03/22/2012      approves distributor participation in the United States Department of Agriculture Rural Economic Development Loan
                and Grant Program and use electric funds for economic development. Management expects to complete final action
                by September 30, 2013.



                Regional Operations Center and System Operations Center Cyber Security Audit
2011-14177      TVA management agreed to review the (1) devices for compliance with configuration management best practices,
04/23/2012      (2) research using Secure Shell for vendor access, and (3) monitor all production servers using the configuration
                management tool. Management expects to complete final action by February 28, 2014.



                Pressures On, Inc.
2010-13104-01   On June 11, 2012, Supply Chain informed the OIG they plan to pursue recovery of $4,145,909 from the contractor less
06/21/2012      any unsupported costs for which the contractor submits additional documentation not previously provided to the OIG
                during the audit. Management expects to complete final action by June 21, 2013.

                Distributor Audit of Memphis Light, Gas and Water Division
                TVA and Memphis management agreed to (1) review Memphis’ processes for adjustments to customer accounts
2010-13657      and make corrections as necessary; (2) review accounts for misclassifications and reclassify, as appropriate; (3) review
06/29/2012      customer usage and install demand meters, as necessary; (4) take action related to customer contract demand, its
                inclusion and accuracy in the system and the need for customer contracts; and (5) obtain and retain manufacturing and
                enhanced growth credit certifications. Management expects to complete final action by June 28, 2013.


                Controls for Handling TVA Private Information - SHPS
2012-14419      TVA management agreed to issue a supplement to the SHPS contract to include security requirements and determine
08/17/2012      an alternative method for sending files that contain social security numbers and supplement the SHPS contract to
                reflect the new method for sending files. Management expects to complete final action by June 28, 2013.


                Bechtel Power Corporation
2010-13347
09/10/2012      On November 19, 2012, Supply Chain informed the OIG they plan to pursue recovery of $1,449,752. Management
                expects to complete final action by September 10, 2013.




                                                                                                TVA OIG Semiannual Report           53
 Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Report Number
                Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


                Craft Labor Staffing
                TVA management agreed to (1) reassess the risk severity and mitigation strategies to verify risk severity and determine
                whether additional or alternative mitigation actions need to be implemented to align with current management
                initiatives such as “Diet and Exercise”; (2) update enterprise risk management documentation to only reflect those
2011-14158      mitigation strategies that are planned or are being utilized; (3) with respect to the risk of craft labor shortages
09/18/2012      arising from a shrinking labor pool, identify: (a) additional options for attracting new entrants to the trades and
                labor workforce and (b) opportunities where craft labor could be reduced; (4) collaborate with Risk Management to
                avoid duplication of risk across enterprise risk management categories and assess whether gaps occur in mitigation
                strategies; and (5) establish an internal process for monitoring the risk, severity, and mitigation actions when changes
                occur in the business environment and on a more frequent basis than semiannually. Management expects to complete
                final action by August 31, 2013.


                TVA Protection of Private Information
                TVA agreed to provide awareness and training to all employees regarding protecting privacy information, perform
2012-14425      quality checks on data entered into the electronic data management system, update the employee discipline policy
09/24/2012      to include mishandling of privacy information and inform all employees of the changes, increase the frequency of
                general file and print servers scans to monthly, perform after-hours clean desk reviews, and ensure proper controls are
                implemented in the new Enterprise Content Management solution. Management expects to complete final action by
                May 29, 2015.

                Hartford Steam Boiler
2011-14225
09/26/2012      On August 20, 2012, Supply Chain informed the OIG they plan to pursue recovery of $679,370 in overbillings.
                Management expects to complete final action by September 20, 2013.


                TVA’s Direct Load Control Program
                TVA management agreed to (1) develop a replacement option strategy, including meeting with the “Cycle and
2011-14244      Save” participants, and seek potential options; and (2) audit each distributor participating in the Direct Load Control
09/28/2012      Program, per the terms of the contract to determine the effectiveness of installed switches, and modify distributor
                credit calculations, accordingly, per the terms of the current contract. Management expects to complete final action
                by September 30, 2013.

                TVA’s Financial Trading Program
                TVA management provided its cost/benefit analysis, qualitative assessments of operational and reputational risk, and
2011-14477      evaluation of new performance metrics to the OIG. Management also agreed to generate a report periodically to
09/28/2012      comply with management oversight needs. After discussions with TVA management, the OIG informed management
                it planned to obtain the services of a consultant to provide a third-party review of the findings and corrective actions
                taken prior to closing the recommendations. Final action is expected by September 28, 2013.


                Review of TVA Records Retention
2008-11829
06/02/2010      TVA agreed to continue current plans to replace the Electronic Data Management System. Management expects final
                action to be completed by May 29, 2015.




  54   TVA OIG Semiannual Report
                                                                                                          Appendix 4

AUDIT AND EVALUATION REPORTS WITH CORRECTIVE ACTIONS PENDING (CONTINUED)


Report Number
                  Report Title and Recommendation(s) for Which Final Action is Not Complete
and Date


2009-12991        Review of TVA Groundwater Monitoring at Coal Combustion Products Disposal Areas
06/21/2011        TVA agreed to continue with the assessment plan and initiate corrective actions for Cumberland and Gallatin Fossil
                  plants. Management expects to complete final action by June 21, 2014.


                  Completion of PowerPlant’s Project/Portfolio Management
                  TVA agreed to evaluate the current project management tools being used today and the cost-benefit of adding
                  PowerPlant functionality. TVA agreed to conduct individual and/or classroom training on an as-needed basis during
2012-14531        2013 and has begun the process of updating and refining the PowerPlant User Guide. The User Guide and Helpful
09/28/2012        Hints are being made available on the PowerPlant Web site for easy access by all users. TVA agreed to develop a
                  communication strategy for system changes, upgrades and modifications. A newsletter has been developed and the
                  reinstatement of the PowerPlant User Group is being studied to improve communications as key decisions are made.
                  Management expects to complete final action by September 30, 2014.




John Sevier Dam




                                                                                                TVA OIG Semiannual Report         55
     Appendix 5
                                                                                       1
INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS


 Referrals
 	           Subjects Referred to U.S. Attorneys                                                 13

 	           Subjects Referred to State/Local Authorities                                         0

 Results
 	           Subject Indicted                                                                     2

 	           Subjects Convicted                                                                   4

 	           Pretrial Diversion                                                                   0

 	           Referrals Declined                                                                  16

 1
     These numbers include task force activities and joint investigations with other agencies.




                                                                                                      Blue Ridge Dam




     56    TVA OIG Semiannual Report
                                                                                                                       Appendix 6

    HIGHLIGHTS – STATISTICS
                                                                       MAR 31,         SEPT 30,      MAR 31,        SEPT 30,       MAR 31,
                                                                         2013             2012         2012            2011          2011
     AUDITS
     AUDIT STATISTICS
     Carried Forward                                                        32              35            34             46            40
     Started                                                                23              28            23             16            29
     Canceled                                                                (1)             (6)           (2)            (2)           (3)
     Completed                                                              (16)            (25)          (20)           (26)          (20)
     In Progress at End of Reporting Period                                 38              32            35             34            46


     AUDIT RESULTS (Thousands)
     Questioned Costs                                                    $1,262        $11,708         $5,110        $1,327         $4,846
     Disallowed by TVA                                                   $2,039          $9,153        $5,691          $655         $1,303
                                                                                               1                2
     Recovered by TVA                                                     $559           $4,168        $1,143          $326          $763


     Funds To Be Put To Better Use                                          $0         $10,204         $6,702        $4,945        $24,963
     Agreed to by TVA                                                       $0           $1,235        $9,558       $20,005         $7,450
                                                                                                                3                            4
     Realized by TVA                                                      $145           $1,235        $2,441        $1,162        $12,750


     OTHER AUDIT-RELATED PROJECTS
     Completed                                                                7             10             9             19            13
     Cost Savings Identified/Realized (Thousands)                           $0              $0            $0             $0            $0


     EVALUATIONS
     Completed                                                                6              6             1              8              3
     Cost Savings Identified/Realized (Thousands)                           $0              $0            $0             $0            $0


     INVESTIGATIONS5
     INVESTIGATION CASELOAD
     Opened                                                                134             148           178            190           190
     Closed                                                                105             157           202            228           161
     In Progress at End of Reporting Period                                160             128           146            163           199


     INVESTIGATIVE RESULTS (Thousands)
     Recoveries                                                             $0         $4,416.4         $17.5            $8         $2,144
     Savings                                                             $770.2         1,454.7            0              0          2,515
     Fines/Penalties                                                        $0              0.3          $1.7             1            453
                                                                                                                               6
     Other Monetary Loss                                                    $0            $83.4      $496,500        $9,693


     MANAGEMENT ACTIONS
     Disciplinary Actions Taken (No. of Subjects)                           16              11            19             23              7

     Counseling/Management Techniques Employed (No. of Cases)               14              20            24             18            24
                                                                                                                                          7
     Debarment                                                                0              0             2              0              1


     PROSECUTIVE ACTIVITIES (No. of Subjects)
     Referred to U.S. Attorneys                                             13              12            14             22            22
     Referred to State/Local Authorities                                      0 	            7             1              3              1
     Indicted                                                                 2              1             5              6              1
     Convicted                                                                4              1             4              5              1
     Pretrial Diversion                                                       0              0             1              1              0


	    1
         Includes $109,054 recovered in excess of amounts decided by management.
	    2
         Includes $198,352 recovered in excess of amounts decided by management.
	    3
         Includes $18,474 savings realized in excess of amounts decided by management.
	    4
         Includes $304,036 savings realized in excess of amounts identified in the audits.
	    5
         These numbers include task force activities and joint investigations with other agencies.
	    6
         Category added in semiannual period ended September 30, 2011.
	    7
         Category added in semiannual period ended March 31, 2011.



                                                                                                           TVA OIG Semiannual Report             57
Appendix 7

Government Contractor Audit Findings

The National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181, requires each Inspector General
appointed under the Inspector General Act of 1978 to submit an appendix on final, completed contract
audit reports issued to the contracting activity that contain significant audit findings—unsupported,
questioned, or disallowed costs in an amount in excess of $10 million, or other significant findings—as part
of the Semiannual Report to Congress. During this reporting period, OIG issued no contract review reports
under this requirement.




Appendix 8

Peer Reviews of the TVA
OIG

Audits Peer Review
IG audit organizations are required to undergo            rating of pass. The peer review report is posted on
an external peer review of their system of                our Web site at http://oig.tva.gov/peer-review.html.
quality control at least once every three years,
based on requirements in the Government                   Investigations Peer Review
Auditing Standards (Yellow Book). Federal audit           Investigative operations undergoes an external peer
organizations can receive a rating of pass, pass with     review, Quality Assessment Review (QAR), at least
deficiencies, or fail. TVA OIG underwent its most         once every three years. During the semiannual
recent peer review of its audit organization for          period ended September 30, 2010, the Office of
the period ended September 30, 2010. The review           Personnel Management OIG conducted a QAR
was performed by an ad hoc team appointed by              of the TVA OIG Investigative Operations. The
the Council of Inspectors General on Integrity            Office of Personnel Management OIG found the
and Efficiency and led by the U.S. Department             “…system of internal safeguards and management
of Education (Education) Office of the Inspector          procedures for the investigative function of the
General (OIG). Education OIG issued the report,           TVA OIG in effect for the year ending August 1,
dated March 21, 2011, in which it concluded               2010, is in compliance with the Quality Standards
that the TVA OIG audit organization’s system              for Investigations and the Attorney General
of quality control for the fiscal year ended              guidelines. These safeguards and procedures
September 30, 2010, was suitably designed and             provide reasonable assurance of conforming
complied with to provide the OIG with reasonable          with professional standards in the conduct of
assurance of performing and reporting in conformity       investigations.” The QAR report can be found on
with applicable professional auditing standards in all    our Web site at http://oig.tva.gov/peer-review.html.
material respects. Accordingly, TVA OIG received a




 58   TVA OIG Semiannual Report
                                                                                        Appendix 9

PEER REVIEW CONDUCTED OF ANOTHER OIG

National Passenger Railroad Corporation (Amtrak) OIG Audit Organization
The TVA OIG completed a peer review of the audit operations of Amtrak OIG. We issued our final report
to the Amtrak OIG on February 14, 2013. We reported that in our opinion, the system of quality control for
the Amtrak OIG audit organization, in effect for the12-month period ended September 30, 2012, had been
suitably designed and complied with to provide the Amtrak OIG with reasonable assurance of performing
and reporting in conformity with applicable professional standards in all material respects. Accordingly, the
Amtrak OIG received a peer review rating of pass. Amtrak OIG has posted its peer review report on its Web
site at http://www.amtrakoig.gov.




Photograph By Richard Thornton / Shutterstock.com


                                                                               TVA OIG Semiannual Report   59
                                     GLOSSARY
                                 TVA OIG Semiannual report




60   TVA OIG Semiannual Report
                                                                                              Glossary


Disallowed Cost – A questioned cost that management, in a management decision, has sustained or agreed
should not be charged to the agency.

Final Action – The completion of all management actions, as described in a management decision, with
respect to audit findings and recommendations. When management concludes no action is necessary, final action
occurs when a management decision is made.

Funds Put To Better Use – Funds which the OIG has disclosed in an audit report that could be used more
efficiently by reducing outlays, deobligating program or operational funds, avoiding unnecessary expenditures, or
taking other efficiency measures.

Improper Payment – Any payment that should not have been made or was made in an incorrect amount
under statutory, contractual, administrative, or other legally applicable requirements, as defined in the IPIA.

Management Decision – Evaluation by management of the audit findings and recommendations and the
issuance of a final decision by management concerning its response to such findings and recommendations.

Questioned Cost – A cost the IG questions because (1) of an alleged violation of a law, regulation, contract,
cooperative agreement, or other document governing the expenditure of funds; (2) such cost is not supported
by adequate documentation; or (3) the expenditure of funds for the intended purposes was unnecessary or
unreasonable.

Unsupported Costs – A cost that is questioned because of the lack of adequate documentation at the time
of the audit.




                                                                                    TVA OIG Semiannual Report       61
     Abbreviations & Acronyms

        The following are acronyms and abbreviations widely used in this report.



        BFN...............................................................................................................Browns Ferry Nuclear Plant
        CA.......................................................................................................................Condition Assessments
        CDE............................................................................. Clarksville, Tennessee, Department of Electricity
        CIP......................................................................................................... Critical Infrastructure Protection
        CPP........................................................................................................ Challenged Properties Program
        DOJ...............................................................................................................U.S. Department of Justice
        DOL.................................................................................................................U.S. Department of Labor
        FAP...............................................................................................................Facilities Asset Preservation
        FISMA.............................................................................Federal Information Security Management Act
        FM........................................................................................................................ Facilities Management
        FTP................................................................................................................. Financial Trading Program
        FY	............................................................................................................................................Fiscal Year
        IPIA................................................................................................... Improper Payment Information Act
        IRP....................................................................................................................Integrated Resource Plan
        IRS CID............................................................ Internal Revenue Service Criminal Investigation Division
        IT	 ...................................................................................................................... Information Technology
        NERC.............................................................................North American Electric Reliability Corporation
        NFPA.............................................................................................. National Fire Protection Association
        NRC.......................................................................................................Nuclear Regulatory Commission
        OIG......................................................................................................... Office of the Inspector General
        OWCP................................................................................ Office of Workers’ Compensation Programs
        QAR.............................................................................................................. Quality Assessment Review
        ROE...........................................................................................................River Operations Engineering
        ROR....................................................................................................River Operations and Renewables
        SCH........................................................................................................System and Component Health
        SERC........................................................................................................... SERC Reliability Corporation
        SQN....................................................................................................................Sequoyah Nuclear Plant
        SWCI................................................................................................ Stone & Webster Construction, Inc.
        TVA................................................................................................................ Tennessee Valley Authority
        TVARS.............................................................................Tennessee Valley Authority Retirement System
        WBN................................................................................................................... Watts Bar Nuclear Plant
        WP......................................................................................................................... Winning Performance



62   TVA OIG Semiannual Report
           Office of the Inspector General
           400 West Summit Hill Drive
           Knoxville, Tennessee 37902

The OIG is an independent organization charged with
conducting audits, evaluations, and investigations relating to
TVA programs and operations, while keeping the TVA Board
and Congress fully and currently informed about problems and
deficiencies relating to the administration of such programs
and operations.

The OIG focuses on (1) making TVA’s programs and operations
more effective and efficient; (2) preventing, identifying, and
eliminating waste, fraud, and abuse and violations of laws, rules,
or regulations; and (3) promoting integrity in financial reporting.

If you would like to report to the OIG any concerns about fraud,
waste, or abuse involving TVA programs or violations of TVA’s
Code of Conduct, you should contact the OIG EmPowerline
system. The EmPowerline is administered by a third-party
contractor and can be reached 24 hours a day, seven days a
week, either by a toll-free phone call (1-855-882-8585) or over
the Web (www.oigempowerline.com). You may report your
concerns anonymously or you may request confidentiality.




Leadership
            OIG


          PHILOSOPHY


The TVA OIG strives to be a high performing organization made up of dedicated individuals
who are empowered, motivated, competent, and committed to producing high quality work that
improves TVA and life in the Valley.

Each of us has important leadership, management, team, and technical roles. We value
integrity, people, open communication, expansion of knowledge and skills, creative problem
solving and collaborative decision making.




                                                                      TVA OIG Semiannual Report   63
                               Office of the Inspector General
                               Tennessee Valley Authority
                               Semiannual Report
                               October 1, 2012 - March 31, 2013

64 TVA OIG Semiannual Report
